<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida         DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma   STENY H. HOYER, Maryland
 DAN MILLER, Florida               NANCY PELOSI, California
 ROGER F. WICKER, Mississippi      NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky         ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,        JESSE L. JACKSON, Jr., Illinois
California                         PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                   
                 
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Carol Murphy, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 1

                           DEPARTMENT OF LABOR
                                                                   Page
 Secretary of Labor...............................................    1
 Worker Protection Panel (ESA, OSHA, MSHA, PWBA)..................   81
 Employment and Training Administration/Veterans Employment.......  163
                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 74-925                     WASHINGTON : 2001



                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              

                                             Tuesday, May 22, 2001.

                        U.S. DEPARTMENT OF LABOR

                                WITNESS

HON. ELAINE L. CHAO, SECRETARY OF LABOR

                        Introduction of Witness

    Mr. Regula. We will get started. We are very pleased this 
afternoon to have Secretary Chao to testify on the labor 
portion of our responsibilities, and we welcome you to our 
committee.
    Secretary Chao. Thank you.
    Mr. Regula. Your entire statement will be in the record, 
and you can proceed however you think will be the most 
impressive to the members of the committee. Thank you for 
coming.
    Secretary Chao. Thank you.
    Mr. Chairman and distinguished members of the subcommittee, 
I appreciate the opportunity to appear before you today to 
present the Department of Labor's fiscal year 2002 budget.
    I will keep my remarks brief, and as you mentioned, I do 
ask that my written statement be submitted for the record.
    Mr. Regula. Without objection.

                           Opening Statement

    Secretary Chao. The department's total 2002 budget request 
is $44.4 billion in budget authority, up from $39.2 billion in 
2001. This is an increase of 13 percent since last year.
    The discretionary request is $11.3 billion, a slight 
decrease, due to the $1.7 billion in unexpended, unspent funds 
still in the pipeline from the previous year.
    The budget also includes a total of 17,483 full-time 
equivalents. You might ask, what is America getting for all 
this money? I believe that is a question that we should be 
asking about everything that we do. The answer for the 
Department of Labor can be narrowed down to one word, and that 
is hope.
    This budget funds activities, programs, and grants that 
will make a real difference in people's lives by giving them 
hope for a better future. Through the Office of Disability 
Employment Policy, we are giving disabled Americans hope by 
working to incorporate them in the economic mainstream.


                         NEW FREEDOM INITIATIVE


    Our mission over the next several years is to carry out the 
President's bold policy directive, the New Freedom Initiative, 
that will help make this goal a reality. Through the National 
Emergency Grants and other funds and services for dislocated 
workers, we are giving hope to people who have lost their jobs 
by preparing them for new careers.
    Through the compliance and enforcement activities of 
agencies like OSHA and the Office of Federal Contract 
Compliance Programs, we are giving workers hope by making their 
work places safer and fairer to all.
    At the end of the day, what the Department of Labor ought 
to deliver for the taxpayer dollars it receives is hope; hope 
for a better career; for a better future; for a better deal at 
work; for a fair deal at work; hope in a safe and secure 
pension.


                      SIX GOALS FOR THE DEPARTMENT


    Specifically, the budget that we have submitted to the 
subcommittee reflects six goals that I have set for our 
department, on which I would like to comment briefly. Our first 
goal is to train and develop America's 21st Century Workforce.
    To drive this mission, I have created a new Office of the 
21st Century Workforce, which is funded out of existing 
resources. We will host a Summit on the 21st Century Workforce 
on June 20th, 2001, where leaders from business, labor, 
government, and academia will speak to the fundamental changes 
affecting our country's workforce.
    Our intent is to focus on key work place issues, such as 
the skills gap, which I have spoken a great deal about in 
previous settings; the impact of our aging workforce on the 
future labor supply; the retirement needs and training of our 
workforce.
    At the center of this effort is the Department's Employment 
Training Administration, which has a budget of $6.8 billion in 
discretionary funds. Of that amount, $2.3 billion is for 
employment and training for adults; $2.7 billion is for youth 
employment and training programs to help young people enter the 
work force; and you may note that our $6.8 billion request 
represents a net decrease of $474 million from 2001.
    The bulk of that decrease is $359 million in formula 
grants. This reduction stems from the fact that every state 
still has significant employment and training administration 
formula funds in the pipeline totalling, in fact, a staggering 
$1.7 billion, that they simply could not have spent in time.
    We believe that these funds, the $1.7 billion in excess, 
unspent funds, should be used in lieu of new budget authority.
    I want to be clear, Mr. Chairman, that we are fully capable 
of serving the same participant levels that we anticipate in 
program year 2001, by using the budget authority that we are 
requesting, combined with the unexpended youth, adult, and 
dislocated worker funds. The funds will carry into 2002, and 
they will ensure no reduction of service at all.


                      SAFE AND HEALTHY WORK PLACES


    Our second goal is to ensure the safety and health of every 
work place. I am encouraging our health and safety regulators 
to keep finding ways to protect our workers before work place 
related injuries and illness occur. We are absolutely 100 
percent committed to enforcement; but enforcement, it seems, is 
always after the fact.
    We want to identify and promote ways to help employers make 
their work places as safe and healthy and possible. Our 2002 
budget requests for the Occupational Safety and Health 
Administration is $426 million, and our request for the Mine, 
Safety, and Health Administration is $246 million.


               HONEST DAY'S PAY FOR AN HONEST DAY'S WORK


    Our third goal is to guarantee an honest day's pay for an 
honest day's work. Here again, I am encouraging the department 
to look for ways to encourage compliance through education and 
technical assistance, not just the heavy hammer of enforcement.
    Many of our wage and hour laws are decades old; many are 
technical and complex, and in some cases, counter-intuitive in 
our rapidly transformational economy. At the very least, we 
need to make sure that employers know what the laws are, if we 
expect them to follow them.
    In 2002, we are requesting $584.4 million and 4,404 full-
time equivalents to carry out the function of ESA, Employment 
Standards Administration, which includes the Wage and Hour 
Division, OFCCP, and worker compensation programs.


                    REDUCING BARRIERS TO EMPLOYMENT


    Our fourth goal is to fight discrimination and reduce other 
barriers to employment, and to paraphrase our President, we 
believe that no worker should be left behind because of 
persistent race or gender discrimination, or whether it is a 
disability.
    There are approximately 54 million Americans with 
disabilities, 30 million of whom are of working age. Only 26 
percent of working age adults with a significant disability 
have a job or a business, compared with over 82 percent of 
working age adults without a disability.
    President Bush's New Freedom initiative will play a key 
role in our effort to remove barriers for working Americans 
with disabilities. In our 2002 budget, we are requesting $40.6 
million and 57 FTEs for our new Office of Disability Employment 
Policy, an increase of over $20 million and 10 FTEs over 2001.


                           WORKER PROTECTION


    Our fifth goal is to protect workers from coercion and 
intimidation. We play an important role in worker protection, 
both here at home and abroad, and funding for the department's 
Bureau of International Labor Affairs has increased by nearly 
1,500 percent. That is 1,500 percent in the last five years.
    For 2002, the department requests $72 million and 100 FTEs 
for international labor activities. The request recognizes the 
importance of promoting international labor standards and 
ending exploitative, dangerous child labor practices throughout 
the world.


                           PENSION PROTECTION


    Our sixth and final goal is to make sure that workers' 
pensions are protected. I had a very productive meeting 
recently with Attorney General John Ashcroft. Together, we 
agreed that the Departments of Justice and Labor must work 
closely together to protect workers' pensions.
    The Pension and Welfare Benefits Administration, which 
oversees pension and benefits programs, has a 2002 budget 
request of $108 million.


                               CONCLUSION


    In conclusion, I believe this is a very responsible and 
responsive budget that meets the department's mission. The work 
that we do is central to the lives of every American, and 
certainly every American in the workforce.
    Our mission is to make people's work better, and to help 
them work in a safer, more fair, and more rewarding 
environment, and do to so in a fiscally responsible way. In a 
word, as I mentioned before, our mission is indeed to provide 
hope.
    I also want to say, Mr. Chairman, that you and I have 
worked together on other occasions over the years, and I 
appreciate very much the opportunity to work with you again. I 
also want to say that my family's Congresswoman, and that was a 
Freudian slip, Senator. [Laughter.]
    That is Congressman, Nita Lowey, who is my family's 
Congressman from New York.
    So I am pleased to be here, and I will be pleased to answer 
any questions that you may have.
    [The information follows:]


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  Office of the 21st Century Workforce

    Mr. Regula. Well, thank you, Madam Secretary, for a very 
impressive statement. I love your one word ``hope,'' because 
this committee deals in hope. We deal in hope for a better 
education; hope for better medical care; hope for control of 
diseases through NIH and through the Centers for Disease 
Control; and, of course, the hope for a better workplace.
    I think the idea of a 21st Century workplace summit is a 
great idea, because the workforce is changing and the workplace 
is changing. We need to be prepared to meet those challenges.
    That is going to be in June; am I correct?
    Secretary Chao. As I mentioned in my opening statement, a 
new office has been formed to focus on the training and 
development needs of the 21st century workforce.
    Mr. Regula. Yes.
    Secretary Chao. A summit will be held on June 20th of this 
year. The White House has asked us to put that together. The 
participants will be corporate leaders, union leaders, 
organized labor leaders, leaders from academia, from the Hill, 
obviously, and from all sectors, non-profits leaders, to talk 
about how better the department and our country can prepare for 
the 21st century workforce.
    Mr. Regula. Well, I will be interested, and I know the 
committee members will, with the results, because we deal with 
education which, of course, has to be a very significant 
component of this summit; what kind of things should we be 
thinking about to prepare those who participate in the 
workplace in the future.
    Secretary Chao. I think as the economy begins to show signs 
of softening, as well, the June 20th summit will also talk 
about that.
    Mr. Regula. Well, if you will invite us, we will send an 
observer from our subcommittee.
    Secretary Chao. Thank you very much.
    Mr. Regula. Because I think we should be represented.

                        WORKFORCE INVESTMENT ACT

    You covered very well the reduction in the Workforce 
Investment Act, because if I understand you correctly, you have 
adequate carry-over funds to meet all the challenges that will 
be part of that need.
    Secretary Chao. There is approximately $1.7 billion in 
unspent carry-over funds. That is a one-time occurrence, and we 
have proposed that it be a one-time occurrence.
    Again, the reduction, if you will call it that, of about 
$565 million does contemplate taking into account and using 
last year's unspent resources.
    Mr. Regula. Is there any disparity among the states and the 
carry-over funds? Would any state be handicapped by this?
    Secretary Chao. Not at all; in fact, all of the states have 
well in excess of 50 percent of available funds. In fact, most 
states have spent less than 50 percent. Part of that is, of 
course, a changeover from JPTA to WIA. We understand that.
    But nevertheless, there is this tremendous unspent balance. 
So our proposal envisions spending that down first, before 
asking for new budget authority.

                              ILAB Funding

    Mr. Regula. Right, now on the ILAB funds that had a 
tremendous jump from 1997 to 2001, from $9 million to $148 
million, you are proposing a reduction. Is this because the 
needs are not as great in this field?
    Secretary Chao. I have said many times that I am fully 
committed to combatting child abuse overseas. Our department's 
commitment to fighting these horrific abuses is unabated. The 
issue is how best to do to that.
    As you mentioned, in fiscal year 1997, we had a budget of 
about $9 million. For any organization to balloon up to $146 
million within a five year period is just beyond the ability of 
any one organization to absorb.
    So in this year's proposed cut of $147 million back to $76 
million, we are actually just returning it to the level that it 
was in fiscal year 2000.

                          Protecting Pensions

    Mr. Regula. I was pleased to hear you say that you have a 
concern on protecting the pension fund, because in our area and 
in many areas, the steel industry is having some real 
challenges these days. There is a considerable amount of unease 
among retirees as to what potential impacts could result from 
steel companies shutting down.
    So I think that is a very important element, giving 
retirees a degree of confidence, that they will be protected on 
their pensions benefits.
    Secretary Chao. Well, as I am sure you know, Mr. Chairman, 
this whole issue about displacement of steel workers is an 
issue of tremendous concern to the Administration. While I am 
not at liberty to say very much about it, let me say that I 
think people know that there are meetings occurring at the 
highest levels on this, and there is a great deal of concern.
    On the pension funds, obviously, it is part and parcel of 
that, as well as the pension funds of all workers. PWBA has 
major fiduciary responsibilities for private sector pension 
funds.
    Mr. Regula. Yes.
    Secretary Chao. We want to ensure that workers will have an 
element of security when they retire. So that is one of our 
most urgent responsibilities, as well.
    Mr. Regula. That is a very important part of hope; 
security. They go together.
    Mr. Wicker?
    Mr. Wicker. Thank you very much, Mr. Chairman.
    Madam Secretary, it is wonderful to have you here.

                  OSHA's Proposed Rule on Tuberculosis

    I would like to first start off with a question or two 
about OSHA. In March of this year, I sent you a letter 
outlining my concerns about OSHA's proposed rule on 
occupational exposure to tuberculosis.
    The problem, as I see it, is that health care facilities 
have been under tuberculosis regulations by the Centers for 
Disease Control and, in my opinion, they have done a good job.
    Yet, OSHA has come forward with a proposed rule. Last year, 
we had the Institute of Medicine issue a report, which was 
mandated by Congress. The report stated, and I quote, 
``Overall, the committee concludes that if an OSHA standard 
follows the 1997 proposed rule, it may not offer sufficient 
flexibility for organizations to adopt control measures for the 
appropriate level of risk facing workers.''
    The report went on to say that the OSHA standard proposed 
inflexible requirements for health care workers who are at 
negligible risk.
    Secondly, the proposed standard is unlikely to benefit 
workers, more so than the CDC requirements already have. 
Thirdly, it would impose significant costs and administrative 
burdens on health care organizations, hospices, hospitals, and 
the like.
    So I just want to reiterate what I have said before and ask 
you about that. I think that the proposed OSHA regulation of 
health care facilities is unnecessary, over-burdensome, and it 
corrects a problem which is already being corrected.
    In the response to my letter, Acting Assistant Secretary of 
OSHA responded by saying that the final rule for TB will be 
reviewed, along with other rulemaking activities at the agency.
    I wonder if you could enlarge on that rather general 
response that I received, and comment as to the advisability of 
continuing, or perhaps the advisability of discontinuing, the 
previous Administration's attempt to regulate hospitals by 
basically a labor agency.
    Secretary Chao. Well, it is my understanding that this rule 
did not become final during the past Administration.
    I am aware of this Institute of Medicine's study, not in 
any great detail, but I do know that they have issued a report, 
which basically says that there were a great deal more costs on 
all employers, and that the rule did not really accommodate the 
real high risk areas.
    Obviously, the safety and health of our Nation's workforce 
is a top priority. I have worked on, in fact, issues like 
tuberculosis in my previous incarnations, when I was with the 
United Way, and also with the Peace Corps.
    We have not had an opportunity to review this, which is why 
you received, I think, a pretty general response. There were a 
number of final proposed rules and final rules, which were 
issued in the last few days of the last Administration.
    So we are, right now, trying to get our hands around where 
these rules are, what the status is, and what is the real 
implication. So we are looking at all that.
    Mr. Wicker. Well, I appreciate that interim response. I 
would simply suggest to you that under the current guidelines, 
it is more likely for a person out in society in general to 
contract tuberculosis than it is for a health care worker, 
because of the good guidelines which we currently have.
    So I hope you will look at this, and let us not get into 
unnecessary guidelines that would replace those good ones that 
are already there.
    Secretary Chao. I hear your concern. Thank you.

                    APPRENTICESHIP APPROVAL PROCESS

    Mr. Wicker. Madam Secretary, I am pleased to hear you 
comment, early on, about training and developing a good 
workforce. I believe you noted that was item number one in the 
goals that you outlined in your testimony.
    I hope you will agree that part of this mix is 
apprenticeship programs. They are the source of job training 
for over 400,000 registered apprentices.
    My concern, which resulted in legislation fairly late in 
the last Congress, is that there are now costly and lengthy 
delays in the apprenticeship approval process, which denies job 
training opportunities for thousands of potential apprentices.
    Unfortunately, under current law, once an application is 
officially submitted for approval, there is no formal procedure 
for the approval or disapproval of the application. This has 
led to some applications being on file for months and months 
and even years.
    I will be introducing legislation later on this week, which 
would establish a procedure for this process. My legislation 
would not change the standards of which apprentice programs are 
judged, but it would merely seek to remove unnecessary 
bureaucratic roadblocks. Give us a yes answer or a no answer, 
but at least get the process off the dime.
    Secretary Chao. Right.
    Mr. Wicker. Actually, the changes that my legislation would 
propose could be enacted by your department without 
legislation. Is your department engaged in any activities to 
streamline the apprenticeship approval process?
    Secretary Chao. Well, I think there is no doubt that 
apprenticeships are a very important way in which young people 
and those who want to change careers can gain new skills.
    It is wonderful, as we all talked about, to have mentors, 
and to be able to work with someone who is passionate about 
their job, or who is a real expert in what they do. So I think 
we all can agree that the whole concept of an apprenticeship 
program is one that we all want to support.
    We are looking at various strategies to modernize this 
National Apprenticeship Program. I think it is troubling that 
there seems to be no answers, one way or the other. It puts 
people on hold. It does not give people an opportunity to get 
on with their lives, and we do owe people some answers.
    As we look at these new strategies, I hope that we will be 
looking at ways to expand access to apprenticeships, strengthen 
the linkage of the apprenticeships, to make sure that they are 
partnerships with employers, so that when someone enters into 
an apprenticeship program, that he or she will have an 
opportunity to secure a real job at the end of that period.
    Again, we look forward to working with Congress on ways to 
improve this program. I know that my staff met with your staff 
last year on this, and they are prepared to do so again this 
year.
    Mr. Wicker. Thank you very much, and I thank the Chairman.
    Mr. Regula. I will say to the members, the staff advises 
me, we are going to have votes in about 40 minutes, and we have 
a lot of you here. So we will try to expedite the questions, so 
that everybody gets a chance, given the constraints of time.
    Mrs. Northup?

                    JOB TRAINING FUNDING FLEXIBILITY

    Mrs. Northup. Thank you.
    Welcome, Madam Secretary.
    I would just like to reiterate what you said, and that is 
that hope comes from having a job; a job at whatever point you 
are on the rung of the ladder. It gives you the hope for a 
future that as you move up that ladder, economic security and 
even prosperity are possible.
    The training programs and the monies that are available to 
our states and local communities often seem to be tied to 
bureaucratic constraints.
    Probably the most common complaint that I hear in my 
community is that the funds are still primarily funnelled 
through states and down to local communities where they lack 
flexibility, and maybe an interest in changing or growing or 
meeting emerging needs.
    Often, people are talking about the ability for new groups, 
private groups, boards, that are local in origin, to be able to 
handle this money, and to serve the needs that are unique in 
that community.
    Certainly, the needs in Louisville, Kentucky are not going 
to look like the exact same needs that are in Boise, Idaho, or 
even in all the other communities in Kentucky.
    Has your department looked at that, and do you have any 
plans for any changes?
    Secretary Chao. Well, I think we can always do better. I 
mean, clearly, going from JPTA to WIA, the Workforce Investment 
Act, was an attempt to give states much greater flexibility.
    I think that what we are continuing to hear is that 
stronger partnerships with the state and localities is still 
needed; and, in fact, that training and placement really hinges 
upon employer participation.
    So these WIA Boards which are in the process of being 
reformulated and restructured need to be encouraged to again 
form stronger partnerships with the states, localities, as well 
as the private employers. That is certainly one area that we 
will be in great discussion with these boards on.
    Mrs. Northup. Apparently, there is some ability for either 
approval or disapproval from the Department of Labor. One of 
the complaints that I have heard over the last four years is 
that while we may have changed the law, the inclination to 
continue to have the same bureaucracies deliver the services 
seemed to be there.
    Have you seen areas where you might be able to be more 
flexible to respect the local community that might want to 
provide control to a Board, instead of the traditional delivery 
system?
    Secretary Chao. We are just, as a new team, getting to meet 
with various local and state officials. But your bringing up 
this point is, I think, very helpful, and as we go forward in 
looking at some of these boards and working with the various 
grantees and work place boards, we will certainly keep this in 
mind.
    Mrs. Northup. I have just a comment. I want to specifically 
identify the concerns in Louisville that may be replicated 
across the country. If we look at the community that may most 
often feel locked out of past opportunity, it is often the 
minority community, the disadvantaged community, the community 
where the adults are maybe the first generation that would ever 
get and keep a full-time job that would include benefits and 
lead to self-sufficiency.
    In that community in particular, the leaders have 
complained about the feeling that a system is imposed on them; 
albeit, well meaning and altruistically delivered, and people 
that have only the best interest of those they serve at heart.
    But they are not necessarily people who grew up in that 
community, who plan to stay in that community, who have a stake 
in that community, whose grandparents were in that community, 
and whose grandchildren were in that community. In Louisville 
that is often the faith-based community.
    While that may be a lightening rod politically, we should 
not lock out groups that have the most insight and the most at 
stake in terms of permanently connecting individuals with good 
jobs.
    The Department of Labor has an enormous amount of money and 
training that has a very hard time finding its way to the 
faith-based community. I would ask your department to be open 
and creative about helping that happen.
    Secretary Chao. I appreciate your comments and suggestions. 
As you well know, and others on the committee, as well, the 
faith-based organizations are certainly one of the President's 
priorities.
    But the more important thing is that there has to be a 
stronger partnership between the states and the Department of 
Labor. I hear your concerns, and we will certainly go forward 
with that in mind.
    Mrs. Northup. Thank you.
    Mr. Regula. Thank you.
    Ms. Lowey?
    Ms. Lowey. Thank you, Mr. Chairman.
    Please excuse my voice, Madam Secretary, but I join the 
Chairman in welcoming you to the committee. On behalf of your 
parents, in particular, I welcome you to the committee. I know 
they wish you lots of good luck, and I do, too. I look forward 
to working with you.
    Secretary Chao. Thank you.
    Ms. Lowey. Thank you.
    Secretary Chao. You have such important priorities, and I 
hope that we can truly be partners and work together.

                        YOUTH OPPORTUNITY GRANTS

    Ms. Lowey. I have specific concerns and specific questions. 
You did talk about the carry-over funds. I have just a brief 
comment on that, and then I will move on.
    I do hope, in the face of rising unemployment, that that 
will be sufficient to do the job, and I do hope we will be able 
to maintain the current levels of service, and meet the rising 
demand; so if you have any other comment on that.
    But I would like to move on, because in New York, the 
department's Youth Opportunities Program provides great 
assistance. In this country, we are focusing on teaching kids 
the value of higher education, and rightly so. However, as you 
well know, for many children, college is not the appropriate 
route.
    For many, especially those in some of our communities, this 
program gives them the training they need to succeed in life. 
Could you tell us why the Administration has advocated cutting 
funding for this program?
    Secretary Chao. Sure, let me go back to your first point 
about the carry-over funds. As I mentioned, there is about $1.7 
billion in carry-over funds.
    Ms. Lowey. Right.
    Secretary Chao. Our reduction is to use a portion of what 
is in the system. It does not even use up the whole entire 
amount. Fulfilling the mission of the department will not be 
compromised with this budget, and I want to emphasize that.
    The second thing is, we are anticipating a softening 
economy, as I mentioned in my opening statement. If indeed the 
need is greater, there is something called the Secretary's 
National Emergency Grants, for example, that is discretionary, 
that the Secretary, with the advice, of course, of department 
officials, can channel into needed areas.
    We are very confident that if a locale is somehow unable to 
have sufficient funds to meet its needs, that the Secretary's 
National Emergency Grants would be able to fulfill that need.
    Second of all, on the youth activities, the intent again is 
not to compromise quality nor the service of these programs. In 
the Youth Activities Program, there is an excess carry-over 
funding of about $434 million.
    We have carefully reviewed this reduction amount that we 
are proposing to ensure that there is no impact on the number 
of youth that can be assisted.
    We are proposing to increase the core WIA Program in 2001 
through reprogramming of about $45 million. I think this will 
permit local areas to increase their summer jobs component.
    This program will assist about 721,000 youths, the same as 
projected in 2001, and it has been at about the highest level 
that it has been in a number of years.
    So let me assure you that we understand very, very well the 
need of our country to help these young people who are in the 
prime of their life, or are facing their potential. We want to 
get them off to a good start. With the current budget reduction 
that we have proposed, the total number of clients will not be 
compromised.

                              ILAB FUNDING

    Ms. Lowey. I hope that will be watched very carefully, with 
the unfortunate news of a potential rise in unemployment.
    In another area, Madam Secretary, the department's budget 
also includes a cut, and you referred to the International 
Labor Programs.
    Secretary Chao. Yes.
    Ms. Lowey. In particular, the budget eliminates funding for 
bilateral assistance to countries with high levels of child 
labor, so that these children receive basic education, instead 
of working in sweatshops.
    This is a problem, as you know, in so many parts of the 
world. Could you tell us why this program is being eliminated; 
and what is your evaluation of this program's success in 
helping to end child labor?
    Secretary Chao. I believe you are talking about the IPEC 
Program, and the U.S. is the largest funder of that; Germany 
comes second. So number one, I am very cognizant of the fact of 
the U.S. data as a leading donor.
    Having worked with the Peace Corps. and with many NGOs in 
the international arena, I am very much aware of the value of 
NGOs.
    I have said on many occasions that I am committed to 
helping the international effort to eliminate child labor, and 
there is no question about that.
    The basic program is about $45 million, and it is a $15 
million reduction. There are several things at work here. One 
is, I have discussed the international labor activities of the 
department with the U.S. Trade Representative, Ambassador Bob 
Zoellick, and both he and I agree that the department has a 
very constructive role to play in international labor affairs.
    But this role has to be pursued in a way that is reasonable 
and manageable. For ILAB, the International Labor Affairs 
Bureau, the budget has grown by over 1,500 percent in just five 
years.
    I do not know of any agency that can absorb that kind of 
sudden growth. It is not a criticism at all of the career 
professionals, who are doing a very good job.
    But when the budget of any organization has increased that 
much, I think there are management issues, and there are 
absorption issues. In fact, the department's own Inspector 
General has raised serious issues about the rapid growth of 
this bureau, and whether it is being managed well, where the 
funds are going, and how the funds are being used.
    But let me say once again that I am committed to fighting 
child abuse and child labor overseas. We are trying to do so in 
a responsible way, that will not compromise, of course, our 
mission.
    We are increasing, as you may know, the International Aids 
HIV Work Place Education Program. That is a priority within the 
department. We are maintaining funding on that. Again, our goal 
is that we want to carry out these programs, but we want to do 
so in a responsible way.
    A lot of this money goes overseas with NGOs. We want to 
make sure that it is going out in a way that is truly 
effective.
    Ms. Lowey. Thank you, Mr. Chairman. I see my red light. But 
I hope, Madam Secretary, that we can discuss this further, and 
if there is administration that can be improved, we certainly 
would like to work with you.
    But I hope we can have an evaluation of what the program is 
actually delivering, in stopping child labor and helping those 
young people get a better education.
    Thank you, Mr. Chairman, and thank you, Madam Secretary.
    Mr. Regula. Mrs. Pelosi?

                          ERGONOMIC STANDARDS

    Mrs. Pelosi. Thank you very much, Mr. Chairman.
    Madam Secretary, congratulations to you and good luck. I 
associate myself with the comments of my colleague, 
Congresswoman Lowey, in saying that I look forward to working 
with you. I hope that we can do so on many issues.
    One area of concern that I do have, Madam Secretary, is 
that in January, 2001, the National Academy of Science, an 
independent scientific body, issued a report that was 
undertaken at the request of business groups and conservative 
legislators, who oppose an OSHA ergonomic standard.
    The report found strong scientific evidence showing that 
the exposure to ergonomics hazards in the work place causes 
muscular skeletal disorders, and that these injuries can be 
prevented.
    It also found that a programmatic approach, tailored to 
individual work places, such as that set forth in the OSHA 
standard, is the most effective means to reduce muscular 
skeletal disorders.
    Given these findings, Madam Secretary, can you provide a 
justification for the Administration's support for eliminating 
this standard?
    The President's budget, as you know, cuts OSHA's funding 
for safety and health standards by $1.2 million. Is there 
funding in the budget for development of a new standard; and if 
so, what is the time line?
    Secretary Chao. There are a couple of things. One is, 
obviously, the new Administration inherited the final 
rulemaking on ergonomics. It was promulgated and made final, I 
believe, on January 16th of this year.
    One thing that I have learned in my listening session of 
all stakeholders on this issue is that nobody agrees, and that 
this, indeed, is fraught with a wide spectrum of opinions.
    I said at the outset that this was a very important issue, 
that work place injury is a primary concern of mine, that 
ergonomic injuries are legitimate, and repetitive action 
injuries need to be addressed. I said that I would embark upon 
a comprehensive approach to reviewing this issue, in light of 
the tremendous diversity of opinions on this.
    I might add that action was basically taken on this, on 
March 20th, when the Congressional Reform Act, with bipartisan 
effort, eviscerated this rule. So in the aftermath, I pledged 
that I would take a new look, a comprehensive look, and that I 
would listen to all the stakeholders.
    We are still in the process of listening to the 
stakeholders, meeting with various stakeholders. I have met 
with many leaders of organized labor. I have met with workers 
of various labor groups and locals. I have met with some 
business groups.
    Mrs. Pelosi. My time is limited here, and I appreciate your 
comments. But I just want to further make a couple of 
observations.
    One is that this has been going on for 10 years. Secretary 
Dole, herself, said that establishing this standards was her 
highest priority.
    This was based on science. It kept going back to the 
drawing board, at the insistence of those who wanted to have 
more studies, more studies, more studies, and then studies of 
the studies, and comprehensive studies of the studies, and 
conferences on the studies.
    At some point, you have to freeze the design, because many 
people are being injured. In fact, there is a very strong 
business case for the guidelines. Can you be specific and say, 
what was the objection that the Administration had to this 
particular guideline?

                        CONGRESSIONAL REVIEW ACT

    Secretary Chao. The Administration basically signed off in 
agreement with the Congressional action.
    Mrs. Pelosi. No, I am saying to the guideline, to overturn 
the guideline.
    Secretary Chao. No, this is a final rule.
    Mrs. Pelosi. No, I understand, but the Congressional Review 
Act is a nuclear attack on a rule.
    Secretary Chao. It was bipartisan. It was passed by 
Congress.
    Mrs. Pelosi. There were some Democrats who voted for it, 
yes. But what I was concerned about it is that it deprived you 
of your full latitude to review the rule and come back with 
your own version of the study, unless it was drastically, 
drastically different from the rule that was proposed.
    As you know, under the Congressional Review Act, if 
Congress votes to overturn that rule, those guidelines, then 
nothing similar can be put in place, unless Congress enacts it.
    So what we were trying to do is to retain for you the 
maximum flexibility for you to do all that you said, review, 
talk to the stakeholders, et cetera, and be able to come back 
with an administrative action on the guidelines. Now that 
option is foreclosed, because of the Congressional Review Act.
    What I would like for the record, because my time is 
expired, is to ask specifically what it is that the 
Administration was opposed to, that they overturned those 
guidelines? That is a good place to start, as to finding a 
common ground.
    Secretary Chao. As I have said many times, I am interested 
in finding common ground. I am not interested in going back and 
forth as to who was right, what happened, and where. There is a 
lot of disagreement as to when the rule occurred, when did it 
really get started. But the important thing is that the 
rulemaking did go out. It went out under a very compressed 
timeframe.
    Mrs. Pelosi. You have made your point, Madam Secretary. I 
know my Chairman wants me to yield.
    Secretary Chao. But my point is, I am trying to find areas 
of commonality.
    Mrs. Pelosi. Well, I hope so.
    Secretary Chao. We want to move ahead, and we want to do 
the right thing.
    Mrs. Pelosi. In the meantime, there are more injuries, more 
injuries, more injuries.
    With that, Mr. Chairman, I thank the Secretary once again, 
and yield back the balance of my time. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Kennedy?
    Mr. Kennedy. Thank you, Mr. Chairman.
    I thank the Secretary and congratulate her on this 
wonderful appointment. It is, I am sure, a great honor for her.
    Secretary Chao. I appreciate that.

                               PAY EQUITY

    Mr. Kennedy. I would like to associate myself with the 
remarks of my two colleagues who have just spoken, Ms. Lowey 
and Ms. Pelosi.
    But I want to get to another area, and that is pay equity. 
Would you elaborate on the work of the Women's Bureau in this 
area, and explain why it was flat-funded; and what you think 
you can do to encourage more work in the area of encouraging 
women to enter into fields that would give them greater 
opportunities to help us break down this institutionalized pay 
inequity?
    Secretary Chao. I do not know whether it is a good thing to 
start with or not, but I just wanted to let you know that you 
have a wonderful father.
    Mr. Kennedy. Thank you. He feels the same about you.
    Secretary Chao. Thank you.
    Obviously, no one can take a look at the person who is 
testifying and not feel that gender equity is an important 
issue. I think for every female, it is an issue that is of 
great concern.
    There was a study which was released recently, which was 
leaked recently, and there were some flaws with it. Suffice to 
say, I am very committed to this issue. The persistent gap in 
the pay between women and men is troubling.
    But there are differing reasons as to why that is the case. 
There are consequences, unfortunately, when a person decides to 
lead a non-linear career. Sometimes whether it is for different 
kinds of lifestyle issues, or for raising a family or whatever, 
but there are differences.
    I guess a short answer is that there should be equal 
protection under the law. That is something that we should be 
enforcing. The Administration feels that there really is no 
additional new legislation that is needed; but that we need to 
continue to work on this issue.
    Mr. Kennedy. Well, we are working on it in my State of 
Rhode Island. We are trying to come up with what is already in 
law, as you said, in terms of protections for women; 
particularly, the notion that experiences need to be put on 
some criteria or grading level, so that everyone is graded the 
same way, and you do not have people in virtually the same job 
being paid differently.
    So pay equity is really what we are really after. Equal pay 
is important, but people do not understand pay equity means for 
virtually the same job, people ought to be paid the same. That 
is not happening. So whatever needs to be done, certainly needs 
to be done more to eliminate that.

                        YOUTH OPPORTUNITY GRANTS

    I also wanted to get to the issue of the Summer Jobs 
Program. Youth Opportunity Grants have been cut. I would like 
you to explain that to us.
    Again, you are going to be able to focus what existing 
money you have, in a discriminatory manner, to those areas 
where it is needed the most. I heard you answer that in a like 
question before. So I will accept that as an answer, if you 
want to add to it.
    Secretary Chao. One of my first acts as Secretary, in fact, 
was to visit some of areas where the Youth Opportunity Grants 
are given. I went to California, New Jersey, and New York, and 
I have been very impressed with the program.

                        READJUSTMENT ASSISTANCE

    Mr. Kennedy. Madam Secretary, just because my time is 
closing, too, maybe we could talk about that further. But I 
wanted to finally say, you mentioned in another question that 
was answered that you are working very closely with Ambassador 
Zoellick on this trade issue.
    Obviously, I want to voice my concern, which was voiced 
before, about the reduction in funding for dislocated workers 
and other jobs programs for adults. I know that goes to the 
question that I spoke about, that you answered already.
    But with globalization and the Administration's push for a 
fast track and more trade, it seems to me that it is 
inconsistent with the Ambassador's whole idea that we need more 
readjustment assistance, and we need to get those training 
programs off early in the right direction.
    Finally, would you just comment on the issue of the Saipan 
and ``Made in the USA'' and what the Department of Labor will 
be setting up in terms of standards for the ``Made in the 
USA.``
    Secretary Chao. I am not sure yet what we are going to do 
on that. That is an issue that we are taking a look at, but we 
do not have a definitive answer on that.
    I am still in the process of trying to get my new 
appointees on board. I hope that the Administration and I will 
be able to get on that pretty quickly.
    Mr. Kennedy. Well, it would certainly be helpful to make 
sure the minimum wage for the Northern Mariana Islands is 
consistent with Federal law. That would be a great thing, if 
you could really press that case.
    Thank you.
    Secretary Chao. Thank you.
    Mr. Regula. Mr. Hoyer?

                         ERGONOMIC REGULATIONS

    Mr. Hoyer. I join my colleagues in welcoming you, Madam 
Secretary.
    I would like to follow-up, if I might, on Mrs. Pelosi's 
question on the ergonomics issue. First of all, let me ask you, 
is it your opinion that we need to promulgate new rules or 
statutes with reference to ergonomic injuries in the work 
place?
    Secretary Chao. I have not come to any decision, at this 
point, on whether a rulemaking is necessary. This is because I 
think the responsible way to proceed, again, is to talk with 
the various stakeholders, and to make sure that we do not 
repeat the mistakes of the past. I think the last rule went out 
a little bit too quickly, and I hear this from everyone.
    Mr. Hoyer. Madam Secretary, I have served on this committee 
for a long time. The frustration you hear on this side is that 
we held this up for three years running, in this subcommittee, 
for purposes of review.
    Secretary Chao. I understand that.
    Mr. Hoyer. It is, therefore, difficult to understand why it 
appears to be that this was a rush to judgment.
    Secretary Chao. Basically, the rulemaking went out a year 
before, and I do not have the dates with me right now, but over 
a one year period, we received 75 feet of comments. We had to 
hire contractors to review those comments. That, as you know, 
is a controversial point, in itself.
    I think there was an effort to try to move the rule out on 
January 16th. In so doing, there were not enough stakeholders 
who were involved, and the Congressional Review Act interceded, 
and we are at the situation where we are.
    So I would not like to repeat the mistakes of the past. I 
would like to be able to talk to the stakeholders, so that we 
can find something that is sustainable.
    Mr. Hoyer. Let us assume, if we can, the premise that you 
decide that rulemaking will be necessary.
    Secretary Chao. I am not ruling it out, either.
    Mr. Hoyer. No, I understand that, and I am not suggesting 
by the assumption that you are ruling it in.
    Secretary Chao. Okay.
    Mr. Hoyer. But let us assume, for the sake of argument, if 
we can, that you conclude that it is. How do we proceed under 
the CRA?
    Secretary Chao. We are having the lawyers take a look at 
what that means, and with reference to Representative Pelosi's 
previous comment about rulemaking, if there indeed is a new 
rule, what would that entail, I do not have a General Counsel, 
yet, a solicitor.
    But we are taking a look at it, and we are trying to 
determine what that really means, I guess the bottom line is; 
whether there are certain aspects of the previous rule that we 
can still include, and what does ``substantially similar'' 
really mean? Obviously, that would be necessary if there were 
to be any new rulemaking for that new rulemaking to stand.

                               JOB CORPS

    Mr. Hoyer. Okay, Job Corps, could you comment briefly on 
that? There are three new Job Centers, as you know, on line, 
that will go into operation, and the Job Corps budget is 
frozen.
    What impact will that have on existing centers? Do you 
anticipate the closing of any existing centers, or the 
downsizing of any such centers? Also in your answer, you might 
want to comment on any enhancements to the program that you 
might be contemplating.
    Secretary Chao. Job Corps has received about a 22 percent 
increase in new funds, above the 1997 appropriation. So this 
basically maintains the FY 2001 level.
    At this time, we have no plans to close any centers. I 
visited them, and they are doing very well. There is a lot of 
support for them. So I do not anticipate that.
    I will say, the only reason why they would be closed is if 
they do not perform. It would be on poor performance, alone.
    Mr. Hoyer. If they do not perform, we ought to close them. 
I agree with that.
    Secretary Chao. Yes.

                        ONE STOP CAREER CENTERS

    Mr. Hoyer. Or we should certainly change their management. 
That is probably a preferable alternative.
    This is my last question, if the Chairman will let me sneak 
it in. On the One Stop Career Centers, in particular, you may 
have mentioned that in your testimony. I was looking through it 
and you might have referenced it.
    I am an enthusiastic proponent, as you may have heard, of 
centralizing services for ease of access for users, for 
intended beneficiaries. Can you tell me the consequences of the 
$16 million cut in that? Does the $16 million impact more the 
second component, the labor market information, or the work 
centers?
    Secretary Chao. The $16 million, actually, applies 
basically to upgrading the information systems, the computers.
    I have been to the One Stop Career Centers. I know how 
important these computer systems are. It is a way for people to 
learn how to use the computer. It is a way for them to access 
Monster.com to find a new job, so it is very helpful.
    But this is a one time, up-front set up cost, which we feel 
can be absorbed within the existing budget. Again, it does not 
impact the function of the one-stop career centers at all. In 
fact, that is funded on a separate line. But that $16 million 
is just a computer setup cost, which we feel can be absorbed 
within the current budget.
    Mr. Hoyer. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Sherwood, we have probably got about five 
minutes. Would you rather go now, or come back?
    Mr. Sherwood. I will be glad to go now, Mr. Chairman.
    Mr. Regula. I do not think we have had the second bell. We 
have three votes here.

                     INTERNATIONAL LABOR PRACTICES

    Mr. Sherwood. Welcome, Madam Secretary. I commend the 
Administration on bringing someone with your educational 
background into the position. I am particularly impressed with 
your work in Hanover, having been there.
    I would like to just mention briefly that I think with our 
granting PNTR to China, it is important that we promote good 
labor practices as much as we can there.

                            JOB CORPS CENTER

    I want to put my oar in the Job Corps Centers. I represent 
the Red Rock Job Corps Center in Sullivan County. It has been 
so successful over the years in bringing young people from 
difficult circumstances into the work force and very good 
careers. So I would like to associate myself with that.

                       WORKER PROTECTION PROGRAMS

    The real thrust of what I would like to say today, I was a 
little surprised to learn that the Labor Department Worker 
Protection Program had a 36 percent increase. We have been 
hearing about budget cuts and budget cuts, and that is well 
beyond the rate of inflation.
    One place that I have felt that, in my district, we have a 
bluestone farming industry. Our dairy farmers have been forced 
out by the factory farm movement. Our forestry people by 
imports of Brazilian pulp.
    Many of them have turned to palletizing their stone walls. 
The piles that have been taken off the fields for years, and 
shipped for building stone and decorative stone. They also 
quarry some bluestone.
    These are mostly one and two man family operations. MSHA 
has recently taken a great interest. I was glad to see that you 
mentioned that you are very interested in education and 
prevention.
    That has not been my experience with MSHA in the past. I 
would hope that they could be more interested in education and 
work place safety, than in just coming into a one or two man 
family operation and, for instance, fining a two man operation, 
because they do not have a stretcher; or because the farm roads 
are not posted with speed limits.
    We have so much to do in work place safety that I do not 
think there is any room for this punitive action. I think we 
need to help educate those people, so their work places will be 
safer. I would very much like your attention to that issue.
    Secretary Chao. Well, there is a new MSHA Administrator, as 
well, Dave Lauriski. I hope that he will have an opportunity to 
meet with you, to work out some of these issues.
    Mr. Sherwood. I would certainly like to meet with him and 
work on the issues.
    Secretary Chao. As you can see from the chart that I have 
just unveiled, worker protection programs have, in fact, been a 
priority, and we have kept that level well in excess of 
inflation; so thank you.
    Mr. Sherwood. It has been my experience that anytime you 
have that kind of growth, it is sort of hard to administer the 
money.
    Thank you very much.
    Mr. Hoyer. Mr. Chairman, could I ask a question?
    Mr. Regula. Yes, if it is a quick one.
    Mr. Hoyer. In regard to your chart, does that reflect the 
adopted budgets?
    Secretary Chao. No, it is the real budget. Is that what you 
mean?
    Mr. Hoyer. Yes, this is 1996 to 2002?
    Secretary Chao. Yes.
    Mr. Hoyer. My question is, does that reflect the budgets 
that were signed by the President?
    Secretary Chao. From 1996 to 2000, I believe so, yes.
    Mr. Hoyer. I say that respectfully, Mr. Chairman, because I 
think those figures would differ on the budget that was 
originally passed through the House and Senate, I think, if you 
reflect upon it.
    Secretary Chao. Well, if that is the case, I need to take a 
look at that. Thank you for pointing that out.
    Mr. Hoyer. No, no, I do not mean that the chart is 
inaccurate.
    Secretary Chao. I understand the point.
    Mr. Hoyer. But there is a different impact, I think.
    Mr. Regula. The committee will recess. We have two votes 
now, instead of three. We will come back, and it will be Mr. 
Istook and Mr. Peterson.
    [Recess.]
    Mr. Regula. Well, we will reconvene. I think, Mr. Peterson, 
you are up.

                           WORKER SKILLS GAP

    Mr. Peterson. Welcome, Madam Secretary. It is a delight to 
have you in Washington, serving in this Administration. I look 
forward to working with you.
    Secretary Chao. Thank you.
    Mr. Peterson. I would like to talk a little bit about the 
workforce. It seem to me in this country, we have had a 
tremendous change in the needs in the workforce, in the kind of 
worker we need. We are on a very strong academic model of 
education, and the manufacturing and processing, I think, have 
to be maintained, if we are going to be a strong country. We 
have to maintain manufacturing capacity.
    Those that are being successful, in my district, and I tour 
manufacturing plants every month, are very high tech. So the 
processes that they are using are computers, robots, all kinds 
of the latest technology, measuring, making sure products are 
of the highest quality. That is how they are competing.
    But it seems to me that we are developing a real shortage. 
All the jobs that I see that are begging are technology.
    Secretary Chao. Right.
    Mr. Peterson. Do you think we have made an adequate 
investment in high tech classrooms, because it is more 
expensive than academic classrooms? Do you think we have made 
an adequate investment there in the country?
    Secretary Chao. The skills gap is something that I have 
talked about a lot, especially in my confirmation hearings, and 
in forming this 21st Century Workforce.
    You are right; there is a problem. If you were to talk to 
any high tech executive, or indeed any executive, one of their 
most troubling areas of concern is indeed the skills gap.
    High tech, although it has gone through a period of 
softening, or rather even a slump since last March, is still 
nevertheless, the hope of the future. These are safe jobs. They 
are relatively high paid, and they are just dying for quality 
workers.
    On the other hand, I have worked with a lot of individuals 
through United Way and Peace Corps, where we have a lot of 
under-privileged individuals who want to climb onto the ladder 
of success, and are unable to do so, because they lack very, 
very basic working skills.
    So this is one of the issues that I hope the summit, as 
well as the workforce development office that I have 
established, will address.
    I have started a dialogue with Mayor Williams of 
Washington, D.C. That is certainly an area of great concern. It 
is the Capitol city. I have also begun a dialogue with 
Secretary Paige, because the quality of the work force will 
depend on the educational preparation of our workforce coming 
up.

                          VOCATIONAL TRAINING

    Mr. Peterson. Your voice to the Department of Education 
will be very helpful in convincing them.
    You know, with the last Secretary, I had a number of 
discussions with, when I was on the Education Committee. It was 
his theory that everybody should get an academic education, and 
then get their skill training.
    You and I know that is not going to work for poor people 
and disadvantaged people. It is just not going to work. It 
works the other way. You learn a skill, you work with your 
hands, and if you are smart, you will be working your way into 
academic education, also, and you will be enhancing your skills 
with that.
    We are looking at developing a proposal to help states and 
school districts, through the states, develop higher tech 
classrooms; because in my state, we have less people in middle 
school and high school choosing all the technologies, even down 
to the basics of plumbers and electricians and machinists, and 
all of those, which are also in shortage, and the process of 
manufacturing, all of that, it is much more technical, today. 
It used to be, you needed brawn and strength. Today, you need 
to have skills.
    Secretary Chao. I agree.
    Mr. Peterson. But to get them into the technical fields, 
you have to start them younger, in high school. Actually, we 
have less people in technical education in many states, at the 
high school level today, then we used to have. They are not 
even thinking about those areas.
    In the higher end, on the information age things, we have 
not a lot more studying in the colleges than we did before at 
the academic level. So it is like we do not know where the jobs 
are, or at least or young people do not seem to. How can we 
change that?
    Secretary Chao. You mentioned some very important 
partnerships that need to be strengthened. One is vocational 
schools and colleges.
    Mr. Peterson. Yes.
    Secretary Chao. I am totally in support of that.
    As you mentioned, not everyone wants to go to college, nor 
should they.
    The third avenue is certification programs. Certification 
programs and high tech, you know, if you are Microsoft 
certified, Intel certified, you have pretty much a job when you 
graduate.
    That refers back to my previous point. You said training 
and placement really hinges upon employer participation. That 
partnership has to be fostered and made closer. So I am 
certainly cognizant of the issues that you raise.
    Mr. Peterson. But we would like to enlist your support. I 
would like to meet with you and help strategize. Maybe we can 
convince the Department of Education to shift gears a little 
bit in their future investments. Because in my view, vocational 
education has been flat-funded for decades, here. That is just 
inappropriate, when you think about where we are at, today.
    Secretary Chao. I will look forward to working with you on 
that.
    Mr. Peterson. Yes, thank you very much.
    Mr. Regula. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.

                               LM-2 FORMS

    I have one question about the LM-2 form. I do not know if 
you are ready to give a response on that.
    Secretary Chao. Yes.
    Mr. Miller. It is something that I have been working on 
with the department for the past several years, to basically 
bring them into the 20th century level and the 21st century. It 
went slowly, but hopefully, it is getting close to being fully 
implemented.
    Secretary Chao. Yes, and I would like to answer that, 
actually.
    First of all, I look forward to meeting the high school 
students.
    Mr. Miller. Thank you. Some of them are in the audience, 
already.
    Secretary Chao. Oh, really?
    Mr. Miller. So I would appreciate it if you could take a 
few minutes afterwards and meet with them.
    Secretary Chao. I look forward to meeting them.
    Mr. Miller. That is great.
    Secretary Chao. Well, we basically have 10 people there. 
There are 30,000 applications. Since your request, we have 
actually gone on line, and taken a look at the status.
    Mr. Miller. Okay.
    Secretary Chao. We have 10 people in that unit. They 
receive about 30,000 applications. There are 10,000 requests.
    Of the 10, I think there are some performance evaluations 
that are probably needed. We have several employees, and one in 
particular, that has been there 34 years at a GS-4. So this is 
obviously an issue of concern to you, and we would like to take 
a look at that.
    Mr. Miller. If you could just make it available; 
information was a problem. We need to get beyond the old 
handwritten forms, and everything should be online. I am glad 
we are moving in that direction. So at least they started it in 
the prior year.
    You know, one area that we have talked about in other 
hearings, you are talking, to some extent, about the shortage 
in education; but there is a shortage in health care workers.
    Secretary Chao. Yes.

                            NURSES SHORTAGE

    Mr. Miller. Maybe you have already talked about that; but 
you talked about the hospitals, the home health agencies, the 
nursing homes.
    It is a huge, huge problem in my area of Florida, where we 
have so many senior citizens. It is the same problem in 
education. But this is not just the licensed nurses. I mean, 
you have got lesser skilled ones. I do not know how we are 
going to keep these places fully staffed.
    Secretary Chao. It is a cyclical issue. There are times 
when the supply exceeds demand, and obviously other times in 
which people cannot find enough jobs in the sector.
    But certainly, right now, we are in very urgent need. When 
I talk to health care professionals and employers, they are 
very concerned about the shortage of nurses.
    We have an H-1B Visa Program, which we are in the process 
of improving. There has been new computerization of that 
program. We hope to make it easier for people to access and 
more efficient in processing the number of applications that 
come through.
    We also are, again, in partnership with community colleges 
and with the vocational colleges, to ensure that some of these 
skill sets are being emphasized, and that resources are being 
given to develop the capacity that is needed.

                               H-1B VISAS

    Mr. Miller. I was talking to one hospital down in the Miami 
area, that is a couple hundred miles away from where I am. I 
think that one hospital alone was going to have 300 nurses from 
the Philippines come on these H-1B Visas. I mean, that is a 
huge number, for just one single hospital.
    But then you have got the nursing assistants, that are not 
quite as skilled a level. Would they qualify for H-1B Visas? I 
mean, they are not necessarily skilled. I am not sure they 
would qualify.
    Secretary Chao. I do not believe so. But I think the larger 
issue is not just to think about importing workers; but indeed 
to foster some capacity building in our own educational system, 
in vocational schools and community colleges, so that some of 
these needs will be met.
    Mr. Miller. What is the Administration's position as far as 
allowing more people to come over on work visas?
    Secretary Chao. There is a set number.
    Mr. Miller. That is right now, but as far as expanding, I 
mean, agriculture has that problem in Florida, whether the 
person is working as a home health aid or whatever.
    Secretary Chao. Well, that is a legislative mandate.
    Mr. Miller. Right.
    Secretary Chao. So there is a set number with H-IB. 
Obviously, with the high tech industry being in such bad shape, 
the number of applications for H-1B Visas has fallen.
    Mr. Miller. I am talking more about the low tech area; the 
agriculture worker, for example.
    Secretary Chao. That is H-2A and H-2B. Again, my 
understanding is that there are mandated numbers for these, as 
well. But I think the larger issue is, as we talk about work 
force development, how do we address some of these shortages in 
a softening economy? Can there be more resources given to 
providing incentives to find additional workers in these 
shortage areas experiencing shortages?
    Mr. Miller. Especially in the service sector.
    Secretary Chao. Right, and obviously, the service sector is 
going to be very important. As a Nation that is more 
industrialized than others, our service component is growing at 
a much, much higher rate than our manufacturing. In fact, in 
all of our unemployment data, the greatest area of growth does 
come from the service sector.
    Mr. Miller. Thank you, and I look forward to having you 
meet with my students after the hearing. Thank you very much.
    Thank you, Mr. Chairman.
    Secretary Chao. Thank you.
    Mr. Regula. Mr. Istook?

                 LIMITED ENGLISH PROFICIENCY GUIDELINES

    Mr. Istook. Thank you, Mr. Chairman.
    Secretary Chao, it is very good to have you with us. I want 
to repeat my congratulations to you on your appointment.
    Secretary Chao. thank you.
    Mr. Istook. I think the Administration is very fortunate to 
have somebody of your capability serving in this. I know it is 
a challenge that you aspire to, but we have confidence in your 
ability to rise to it.
    I know a lot of the questions by different members of the 
panel have related to the issues of how you manage the best 
that you possibly can, of course, with limited fundings that 
are available.
    I have a concern that I want to bring up that I think 
certainly threatens to eat into significant amounts of the 
funds that are available, without having a proportionate 
increase in the quality or the availability of services. What I 
am speaking of is the regulations relating to persons of 
limited English proficiency.
    Secretary Chao. Right.
    Mr. Istook. These were issued by your predecessor in 
January, just before the change of Administrations, pursuant to 
an Executive Order last August.
    It is something that I believe has been under the radar 
screen with a lot of people, because the regulations were not 
labeled as regulations. They were labeled as policy guidance, 
as though it were only some sort of internal guidance.
    However, if you look within the publication in the Federal 
Register, of that so-called policy guidance, under who is 
covered, and just referring to that, it says, among other 
things, ``state level agencies that administer or are financed 
in whole or in part with WIA Title funds; state employment 
security agencies; state and local workforce investment boards; 
local workforce investment areas; grant recipients; one-stop 
operators; service providers, including eligible training 
providers; on-the-job training employers; Job Corps. 
contractors and center operators; Job Corps. national training 
contractors; outreach and admission agencies, including Job 
Corps. contractors that perform these functions; and other 
national program recipients.''
    It further says, anyone that has received ``grants and 
loans of Federal funds, grants or donations of Federal 
property, details of Federal personnel, or any agreement, 
arrangement, or other contract, that has as one of its 
purposes, the provision of assistance.''
    I would appreciate, for the record, from you, from the 
department, an indication of how many people are we talking 
about; not just in terms of how many entities, but how many 
people are employed by that, or how many people whose 
employment would be influenced by that number.
    It is an inordinately broad definition. It is far beyond an 
internal guidance for the Department of Labor, itself.
    I am very concerned that, as of this moment, I do not know 
of anything within the Department of Labor or, for that matter, 
within other Federal departments, that is being done to 
understand or respond to the over-reaching scope of these.

                  STATE RESPONSES TO POLICY GUIDELINES

    I know that I want to refer to some of the responsive 
letters that your department has received from different 
agencies. For example, the Montana Department of Labor wrote, 
by letter of March 16th, recommending the immediate suspension 
of that policy, in its entirety. I am quoting from that letter.
    ``Montana respectfully recommends the immediate suspension 
of the published U.S. Department of Labor policy, in its 
entirety, until such time that a cost benefit analysis is 
conducted, and any resulting policy be implemented with 
appropriate funding.''
    They refer to this as an overwhelming unfunded mandate. The 
Illinois Department of Employment Security wrote, by letter of 
March 26th that, ``These guidelines may lend themselves to 
costly and time-consuming litigation against a variety of 
Federally funded programs.''
    This is because, of course, they, as many others fear, that 
if they are not in compliance with these so-called policy 
guidelines, they are subject to an inordinate number of suits. 
Believe me, these letters go into far more detail than I am 
mentioned for the record, here.
    The State of New Mexico wrote to take issue, especially 
with the fact that there is no funding whatsoever provided to 
comply with extremely burdensome requirements.
    The Department of Labor of the State of New York, in their 
letter of March 19th said the policy is problematic for several 
reasons; that it imposes an unprecedented burden on state and 
local governments, without any new funding by U.S. DOL.
    They say that it suggests the ``creation of an extensive 
administrative program that is both unreasonable and 
impractical; that it would require the Department * * *'' and 
this is the New York Department of Labor, ``to provide 
extensive translation services to more than 40 LEP groups in 
New York City, alone'' and that compliance would be 
``astronomical'' in its cost.
    I will just hit a few others. Idaho wrote about the 
expensive, unfunded mandate. The National Association of State 
Workforce Agencies wrote to the Department of Labor, objecting 
to stringent requirements, without the requisite funding.
    They noted that, ``Even activities which are state funded, 
and not directly related to the unemployment insurance, 
employment service, and job training programs, may be affected 
by this policy guidance that coverage is nearly universal in 
labor programs throughout the country.'' Of course, they 
requested the cost benefit analysis that was never done, before 
these guidelines were issued.
    I suppose I could go on and talk with others about what the 
State of Michigan wrote, objecting to it. The State of South 
Carolina wanted to refer to the State of Pennsylvania, for 
example; again, joining others in recommending immediate 
suspension of the U.S. DOL policy, in its entirety, until they 
said, such time as a cost benefit analysis is conducted.
    They talk about, there would be at least 20 different 
languages in which all of their materials and programs would 
have to be translated. Quoting from their letter, 
``Pennsylvania's cost of complying with this requirement is 
astronomical, considering the hundreds of forms, pamphlets, 
brochures, Internet web sites, and posters the Commonwealth 
developed for unemployment compensation, job services, job 
training, and other Work Force Investment Act services.''
    They mention just the administrative cost of that 
translation, they estimate to be at least $8 million a year. 
That is just for the State of Pennsylvania, and just the 
administrative cost.
    There are objections from a number of other jurisdictions. 
This is despite the fact, as I mentioned, that most, I think, 
were unaware that this is a universally applicable regulation, 
because it was misleadingly labeled a policy guideline; 
although the substance is, indeed, a regulation, having impact 
far outside the Department of Labor, itself.
    So I wanted to ask you, and this is, of course, for follow-
up for the record, has there been any effort to determine how 
many people and agencies are going to be affected; what kind of 
cost this is going to be impose, not only upon the private 
sector, but even upon the public sector, the state and local 
agencies.
    I do not have it highlighted. I know there was commentary, 
certainly, among this correspondence, indicating that the 
resources that will be necessary for this so-called policy 
guidance will drain the resources that are supposed to be 
present to provide the job training and other assistance 
programs that are the underlying rationale for their very 
existence.
    So I would appreciate your comments, because so far, I have 
not seen any indication that anything is going on to either 
halt or ameliorate the immense burden that is forthcoming.

               DEPARTMENT OF JUSTICE REVIEW OF GUIDELINES

    Secretary Chao. Well, we appreciate your bringing this to 
our attention.
    As you noted, these guidelines were issued in the waning 
days of the past administration. They came out on January 17th. 
Comments have been taken. They are being reviewed right now, 
and the Justice Department is actually taking the lead on it.
    So, again, we appreciate your bringing this to our 
attention. We will be taking a look at it. I have not seen any 
of the issues that you have mentioned being brought into 
review, and we will be taking a look at that.
    Mr. Istook. Certainly I appreciate that, and I would 
appreciate some expansion, if you might. You mentioned the 
Department of Justice which, of course, under the Executive 
Order, as appointed as the lead agency to coordinate with other 
agencies for this program. So it is certainly proper that DOJ 
had the lead.
    But I am concerned whether there is anything being done 
with the Department of Labor or others.
    Secretary Chao. Yes, we are going to take a look at it.
    Mr. Istook. Is that being done through the Office of Civil 
Rights, or other parts of the department?
    Secretary Chao. It will not be only in the Office of Civil 
Rights. I mean, this is a guideline which will receive 
clearance from all the other offices throughout the department.
    Mr. Istook. I would appreciate some follow-up for the 
record, especially considering how many people will be affected 
by the scope of this.
    Secretary Chao. Yes, we will certainly do so.
    [The information follows:]

    DOL is continuing to review comments to the policy 
guidelines. Resources available and costs to the recipient or 
state agency are substantive considerations in the DOL's 
review. Additionally, the Supreme Court rendered its landmark 
decision, Alexander v. Sandoval, 121 S. Ct. 1511, 69 USLW 4249 
(2001) subsequent to publication of the Department's policy 
guidelines. The Department is awaiting Department of Justice 
guidance on the impact of this decision on DOL's 
responsibilities under Title VI or Executive Order 13166.

    Mr. Istook. You know, it is important for us to understand 
what the Administration is doing or not doing on this, so that 
we can fashion whatever may be an appropriate Congressional 
action, especially since, of course, the former Administration 
did these without any authority from Congress, or statute, to 
do so, and in fact, frankly under a very strained 
interpretation of the law that has been rejected by the U.S. 
Supreme Court, in a decision issued earlier this year.
    Secretary Chao. As you can imagine, there were a number of 
regulations and guidance which came out in the last few days of 
the previous Administration, and we are in the process of 
sorting them out.
    Mr. Istook. Certainly.
    Secretary Chao. Thank you.
    Mr. Istook. Let me ask, do I have any time remaining, Mr. 
Chairman, or is my time expired?
    Mr. Regula. Well, you may ask one more question.

                       PRESIDENTIAL APPOINTMENTS

    Mr. Istook. I realize that for any new Administration, 
there are always transition difficulties and, of course, 
dealing with whatever is on the agenda from a prior 
Administration is only one part of it.
    But could you kind of fill us in on the progress of being 
able to have Senate approval of nominees that require 
confirmation, the placement of the necessary persons, that 
enable you to coordinate with the new Administration for your 
agenda; how that process is going, to make sure that you have 
the resources, in terms of personnel of your own choosing, to 
carry forth your agenda?
    Secretary Chao. I think the new team wants to be very 
responsive to Congress. I was hoping that Representative 
Kennedy would be here, because obviously, someone in his family 
would be pretty instrumental.
    I would state that our goal is to work, again, 
productively, and well with Congress. We want to be responsive. 
It certainly would help if we had more bodies. We have about 
seven confirmed appointees at this point. We have 19 PASs, 
overall.
    Mr. Istook. PAS being?
    Secretary Chao. Presidential appointments that are 
confirmed.
    So compared to other departments, believe it or not, we are 
actually ahead. But certainly, we would be more responsive if 
we had more bodies around.
    Mr. Istook. And certainly we wish that 17 out of 19 were 
not considered good in the overall situation.
    Secretary Chao. Well, it is 7 out of 19.
    Mr. Istook. Correct, right, and if that is better than 
others, that just shows that there are problems with others 
getting their people in place, too.
    Secretary Chao. Right.
    Mr. Istook. We wish you well, and want to encourage people 
to help approve in the appointment process.
    Secretary Chao. Thank you very much.
    Mr. Istook. Thank you, Madam Secretary.
    Mr. Regula. Ms. DeLauro.

                             GENDER PAY GAP

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Welcome, Madam Secretary, it is a delight that you are 
here.
    Secretary Chao. Thank you.
    Ms. DeLauro. I think you may know that for the last several 
years, I have worked very hard on the Paycheck Fairness Act, 
and the whole issue of unequal pay for women.
    The Census Bureau recent data, the Department of Labor, 
shows that women are earning between $.73 and $.75 for ever 
dollar that a man in our society makes.
    When you get to women of color, the figures are even 
bleaker. African American women earn $.64, and Hispanic women 
earn about $.55 for ever dollar earned by their male 
counterpart. Those figures are both from the Department of 
Labor, based on 1999 annual weekly earnings.
    Nationally, as I understand it, and this is a 1996 to 1998 
current population survey, that nationally the gender gap wage 
cost women and their families about $4,000 annually.
    I must tell you that I do not ever regard this as a women's 
issue. This is about families. Especially in today's world, 
when you have got men and women in the work place, if you have 
one person bringing home a full paycheck, and someone else 
bringing home three-quarters, they are just not carrying their 
weight. It just does not cut it.
    So this all about a household, and what happens today, when 
men and women are in the work force. It also means that women 
suffer with their retirement savings.
    I mean, there are a whole variety of issues that later in 
their lives they suffer for. It is one of the principle reasons 
why older women are one of the largest groups that lives in 
poverty in their older years.
    Let me just ask you from your standpoint, Madam Secretary, 
as the leader of the Department of Labor, do you agree that 
there is a gender pay gap?
    Secretary Chao. I do believe there is a gender pay gap, but 
you and I are probably going to differ on the reason why. I 
think there are lots of differences as to why men and women are 
paid differently.
    I think it depends on educational levels. It think it 
depends on career choices. If you are going into a staff 
position throughout your life, you are not going to be paid as 
well, as if you are in a line position. If you are not educated 
as well, you are just not going to be paid that well.
    So I think the issue is, how do we back up more and help 
women and people of color to prepare themselves more so that 
they can be valued more in the work place.
    Ms. DeLauro. What I would like to do, if you do not mind 
is, I would love to send you the studies.
    Secretary Chao. Yes, I would like that very much.
    Ms. DeLauro. It is the American Association of University 
Women.
    Secretary Chao. I know them well.
    Ms. DeLauro. Right, and I will tell you, accounting for 
education across the board, if you hold constant the things 
that you mentioned, that in fact even with all of that, women 
are paid less. I am not making up the statistics, but I would 
happy to get all of that data to you, because the surveys are 
recent.
    Secretary Chao. Sure.
    Ms. DeLauro. The fact of the matter is, it does make any 
difference whether we are talking about people who have been 
educated, professionally educated with professional 
credentials, or those who have not; it is about the same.
    Secretary Chao. We need to close the gap, and we need to 
work on that.
    Ms. DeLauro. Exactly, and now the other piece of that is, 
do you think that we could enhance the Equal Pay Act, the one 
that was passed in 1963, in order to move us in the direction 
of dealing with that gender gap?
    Secretary Chao. This Administration is not in favor of 
that. We feel that there is equal protection under the law 
currently. If there is discrimination, we need to fight it. It 
goes back again to preparation, to education.
    I know Ann Bryan very well. I know that study very well. I 
worked with her on that, when I was with the United Way.
    Let me also mention, there is a new Director of the Women's 
Bureau, and she will be working on these issues. She is the 
first Asian American ever appointed to be the Director of the 
Women's Bureau. So this will be one of her priorities.
    Ms. DeLauro. What do you think we have to do? Do you think 
we need to provide resources, financial resources, to educate 
employers on this issue? The fact is that, you know, as I say, 
accounting for education and experience and all of those 
things, women are still being paid less. What do we need to do, 
in your view, in terms of the education of employers in this 
regard?

                  OFFICE OF THE 21ST CENTURY WORKFORCE

    Secretary Chao. Before you came, I talked about the 
establishment of the Office of the 21st Century Workforce, and 
how important it is for our country to have a quality workforce 
to sustain the economic vibrancy that we currently have.
    If employers are smart, and they would want smart workers 
and a quality workforce, they are going to take care of their 
people. So through an increased awareness of what it takes to 
develop a quality workforce, through this 21st Century 
Workforce Office that we have established, I believe that the 
goals that we share will be worked toward.
    Ms. DeLauro. I am sorry, and I apologize; it has been busy 
here around this place, today.
    Secretary Chao. Of course.
    Ms. DeLauro. What will the 21st Century Workforce Office do 
to, if you will, make employers aware?

                         CLOSING THE SKILLS GAP

    Secretary Chao. We are going to work with all stakeholders 
at the very grassroots level, at state and local, on closing 
the skills gap.
    Obviously, there are a lot of jobs in high tech, to name 
one industry, that have a lot of relatively better paying, 
safer jobs, that go begging, and we have lots of Americans who 
want these jobs. So one is the skills gap.
    Two is working on the upcoming worker shortage, as all 
demographic shifts indicate.
    Ms. DeLauro. Now I come from a state, quite frankly, where 
we have a lot of those bio-tech jobs, but it is different. It 
is preparation and skills preparation.
    But there are employers today who do pay women in their 
employ less, and I am not talking about comparable worth. I 
have put that aside. I am talking about, for instance, there 
are places where people cannot share or talk about what salary 
they make.
    There is, in essence, if you will, a gag rule that says 
that you and I, if we are working in the same place, cannot 
share information about what my salary is or your salary is, or 
with my counterparts. It is true. It is there.
    Secretary Chao. I think in these days of the Internet, if 
you go on any Internet web site, you are going to find lots of 
things out there, including how much people are making.
    Ms. DeLauro. Well, you can find it out about all of us. It 
is in the public domain.
    Secretary Chao. It is everywhere.
    Ms. DeLauro. But oftentimes, folks are penalized. That is 
the point. People are penalized for sharing that information in 
some industries.
    Again, I would be happy to provide the data and the 
material, because with the Department of Labor, we are dealing 
with workers and we are dealing with employers. So it seems 
that what we have got to try to do is to figure out how we try 
to eradicate a gender gap, and how do we then deal with 
probably a small percentage.
    I would not paint anyone with a broad brush with employers. 
But I dare say, and there is a lot of data to back it up, that 
women in the same jobs in various places, oftentimes are paid 
less, despite whatever their background or their credentials or 
their level of education is.
    Secretary Chao. When that is true, we need to fight against 
that. I think we totally agree on that.

                        FAMILY AND MEDICAL LEAVE

    Ms. DeLauro. If I can, let me move to family medical leave. 
My view, and I guess I am a little bit proprietary, because I 
worked with Senator Dodd for a number of years, in the years 
that he struggled to get family medical leave passed. I think 
it is one of the most important pieces of legislation that has 
been enacted in the past decade.
    Quite frankly, it is one of the few pieces of legislation 
that mirrors the life changes of people in this country. 
Oftentimes, our public policy does not follow what is going on 
in people's lives, so that you can take time to be with a sick 
child or a sick parent.
    In recent years, the Labor Department began some 
initiatives to work with states to expand the act, making 
family and medical leave more affordable by funding 
demonstration projects to test different mechanisms for giving 
parents full or partial wage replacement, after the birth or 
adoption of a child.
    Currently, nearly three quarters of employees who do not 
take a needed family or medical leave report it is because they 
cannot afford to do it. They cannot take that 12 weeks without 
any kind of revenue coming into the household. So that was one 
way in which to try to address the issue.
    Also, there had been proposals that would expand the act to 
cover businesses of 25 or more employees. As you know, the 
current law is 50 or more employees. We would then extend it to 
them and their families, and you would cover about 71 percent 
of the workforce.
    Let me ask what the Administration's policy will be in 
terms of expanding these initiatives, and how you see family 
and medical leave playing a role for working families?
    Secretary Chao. I think there are lots of rules on our 
books that do not take into account the reality of the work 
place today. For example, there are certain rules that look 
toward a 35 hour work week. That is no longer true. With high 
tech industries, as you well know, it is 24/7.
    So I think there are lots of laws and rules on the books 
today, that are not reflective of reality. You are right, we 
have to do something about it.
    On family leave, I think when we talk about small 
businesses, you know, small business owners are part of the 
workforce, as well. When we talk about sole proprietor or a 
small business owner, they are part of the workforce. For a 
move of any regulation that goes from excluding companies that 
have 50 people down to 25, I think that would be pretty 
significant for those companies. I do not know what the 
Administration's position is at this point.
    Ms. DeLauro. But your own view is that if we started to 
cover businesses that were 25 or more, that is not something 
that you think is doable?
    Secretary Chao. I do not think that my own personal view is 
really important at this point. I am committed to studying 
this, having an open mind, and looking at it. But that is one 
of the issues that I have heard has been raised.
    Ms. DeLauro. What about the demonstration projects to deal 
with some sort of mechanisms that would provide partial or wage 
replacement during that period of time? Most European countries 
today do provide paid leave.
    Let us leave that aside, but we need to deal with our own 
country. But is there some sort of a way in which you could 
provide that to people?
    Secretary Chao. I do not know, and I will look into it for 
you.
    Ms. DeLauro. That would be an issue I think that I would 
love to be able to see if we could work together to do 
something about this. It is becoming more and more critical.
    It is as much with elderly parents as it is with children, 
and I speak for myself and my generation. Everybody is 
struggling with what they do with regard to having to take care 
of sick or elderly parents, as well as how to try to cope with 
trying to deal with your kids, and spend full-time in a work 
force, and trying to help your family.
    Secretary Chao. I think these family work issues are, 
indeed, some of the issues that the Summit on the 21st Century 
Workforce on June 20th, which the department is hosting, will 
be addressing.
    Ms. DeLauro. I do not know if you are familiar with the 
Family and Work Institute, which is headed up by Ellen 
Galinsky. They have some wonderful recommendations about trying 
to deal with the balance between family and work, which people 
are facing today, and have a number of suggestions. What I will 
do is pull that material together, and I will be happy to send 
that off to you.
    Secretary Chao. I would appreciate that. Thank you.
    Ms. DeLauro. Thank you very much, and I am sure that I am 
way over my time, Mr. Chairman.
    Mr. Regula. That is okay, since you are the last one.
    Ms. DeLauro. Thank you, Mr. Chairman. I appreciate that 
very much. You always are very indulging, thanks.
    Mr. Regula. I have a number of questions that we will put 
in the record. I know you have high school students waiting to 
meet with you. Their questions will probably be tougher than 
ours. [Laughter.]
    I want to say that we are very happy to have you here, and 
to have you in this position.
    Secretary Chao. Thank you.
    Mr. Regula. You have responded very well. I think it is 
quite obvious that you are taking a progressive look at some of 
the issues that confront your department.
    I am really quite intrigued with this June meeting on the 
21st Century Workforce. We will send some of our staff people 
over as observers, because I think that can be an exciting 
concept.
    Secretary Chao. I appreciate the committee's interest.
    Mr. Regula. Well, thanks again for coming.
    Secretary Chao. Thank you. I look forward to working with 
the committee and the members.
    Mr. Regula. The committee is adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Wednesday, May 23, 2001.

                           WORKER PROTECTION

                               WITNESSES

ANN L. COMBS, ASSISTANT SECRETARY OF LABOR FOR PENSION AND WELFARE 
    BENEFITS
DAVID LAURISKI, ASSISTANT SECRETARY OF LABOR FOR MINE SAFETY AND HEALTH
JOE N. KENNEDY, ACTING ASSISTANT SECRETARY OF LABOR FOR EMPLOYMENT 
    STANDARDS
R. DAVIS LAYNE, ACTING ASSISTANT SECRETARY OF LABOR FOR OCCUPATIONAL 
    SAFETY AND HEALTH

                       Introduction of Witnesses

    Mr. Regula. We will get started this morning. We are happy 
to welcome our guests. We have a number of statements here: Ann 
Combs, Assistant Secretary for Pension and Welfare Benefits; 
David Lauriski, Assistant Secretary of Labor for Mine Safety 
and Health; Joe Kennedy, Acting Assistant Secretary of Labor 
for Employment Standards; and Davis Layne, Acting Assistant 
Secretary of Labor for Occupational Safety and Health.
    Are each of you going to testify?
    Ms. Combs. No. We have decided to consolidate our statement 
in the interest of time, and I have been elected to read it, 
the oral statement, and then we will all be available for 
questions.
    Mr. Regula. Okay. Very well.
    We will get started, and you can go ahead. Are you going to 
read the whole statement, or are you going to----
    Ms. Combs. No. I have a consolidated brief oral statement 
and I would like to submit the full statement for the record--.
    Mr. Regula. Okay. Thank you.

                           Opening Statement

    Ms. Combs. Mr. Chairman and distinguished members of the 
subcommittee, we appreciate the opportunity to appear before 
you today to present the Department of Labor's fiscal year 2002 
budget as it relates to our enforcement agencies. As we just 
discussed, we have consolidated the statements of the four 
enforcement agencies, and I will be reading the combined 
statement.
    I am Ann Combs. I am the Assistant Secretary for Pension 
and Welfare Benefits. Accompanying me today to respond to your 
questions are David Lauriski, the Assistant Secretary for Mine 
Safety and Health; Joe Kennedy, our acting Assistant Secretary 
for Employment Standards; to my right, Davis Layne, the acting 
Assistant Secretary for Occupational Safety and Health; and Ed 
Jackson, who is the Director of our Office of the Budget, to 
answer any overall questions you may have.
    I will keep my remarks brief and ask that our full 
statements be submitted for the record.

              PENSION AND WELFARE BENEFITS ADMINISTRATION

    The Pension and Welfare Benefits Administration is at the 
forefront of protecting workers' health care benefits and 
retirement savings. Private sector employee benefit plans 
provide retirement income, health care, and other employee 
benefits to over 150 million Americans. PWBA promotes and 
protects the pensions, health, and other benefits of workers in 
more than 6 million private sector employee benefit plans, 
holding nearly $5,000,000,000 in assets. PWBA's budget request 
for fiscal year 2002 provides for a total of $108,000,000 and 
837 FTE, full-time equivalents. The 2002 request is essentially 
a continuation of our fiscal year 2001 resource level.
    In developing PWBA's budget request, we projected our base 
of front-line staff by carefully examining current activities 
and, as appropriate, shifting resources to fully maintain our 
current level of enforcement compliance, participant 
assistance, education, and outreach activities.
    We are also requesting an additional $500,000 for our 
orphan plan project, where we go in when a plan has been 
abandoned by the fiduciary because of bankruptcy, death of the 
owner, and we go in and we try to make sure that benefits are 
distributed and the participants receive their pensions.
    In fiscal year 2000, PWBA recovered $564,000,000 for plan 
participants as a result of our investigations. We also 
responded to 158,000 inquiries from the public that led to a 
recovery of an additional $67,000,000 in benefit recoveries for 
plan participants.
    We are committed to the Secretary's goal of enhancing 
compliance assistance. We have developed voluntary compliance 
programs for plan sponsors, and we have undertaken an extensive 
outreach program designed to educate employers about the law 
and to educate participants about their rights.
    Pension and health care benefits are an essential component 
of workers' economic security. As Assistant Secretary for PWBA, 
I look forward to continuing to protect the employee benefits 
of America's past, current, and future workers.

                  EMPLOYMENT STANDARDS ADMINISTRATION

    Another crucial part of the Department's worker protection 
function is the Employment Standards Administration. ESA is the 
largest agency in the Department of Labor, with well over 4,000 
employees, located in offices throughout the country. ESA 
administers several programs that protect the basic rights of 
workers, including overseeing the minimum wage, child labor and 
overtime pay standards, ensuring equal employment opportunities 
for employees of Federal contractors, administering Federal 
workers' compensation benefits programs, and protecting the 
rights of workers in unions. In fiscal year 2002, ESA is 
requesting $584,400,000 and 4,404 full-time equivalents to 
conduct its worker protection and worker compensation benefit 
programs.

                                EEOICPA

    This year, ESA is taking on a new worker protection 
initiative, the Energy Employees Occupational Illness 
Compensation Program Act, which we refer to as EEOICPA. This 
new program, established in fiscal 2001, was created to provide 
compensation to employees or survivors of workers who suffer 
from a radiation-related cancer, beryllium-related disease, or 
chronic silicosis as a result of their work in producing or 
testing nuclear weapons. ESA's fiscal year 2002 request 
includes a funding level for EEOICPA that will enable the 
Office of Worker Compensation Programs to fully serve its 
claimants.
    Specifically the budget request will provide support for 
program management, claims processing and customer support 
services, as well as funding for support activities from the 
Department of Health and Human Services.

                  OFFICE OF LABOR-MANAGEMENT STANDARDS

    Another new development, the Office of Labor-Management 
Standards, will implement the Labor-Management Reporting and 
Disclosure Act, electronic timing and Internet public 
disclosure system by the end of calendar year 2001. The LM-2 
forms are an important tool for monitoring the integrity of 
union activity. This project is an important element of 
Secretary Chao's desire to maximize public disclosure of 
information throughout the Department.

                               OSHA/MSHA

    OSHA and MSHA protect American workers by maintaining the 
safety of the American workplace. Secretary Chao is committed 
to making sure that these two agencies will be in the business 
of assisting workers, through their employers, before an 
accident happens. Make no mistake, enforcement is a crucial 
part of the Department's job, but, after the fact, enforcement 
will not ease a family's grief when a loved one is injured or 
killed on the job. Simply put, compliance assistance is about 
workers, protecting them before an accident occurs.
    As such, the Department's priorities for OSHA are to target 
the most serious hazards in the most dangerous workplaces and 
to emphasize prevention through compliance assistance. This 
will include a range of activities, such as outreach, 
education, training, technical assistance, new technologies and 
partnerships with the private sector.
    Last month marked the 30th anniversary of OSHA's inception 
and we are very pleased with the progress made in reducing 
workplace injuries and illnesses in this country. The Bureau of 
Labor Statistics reports that the overall injury-to-illness 
rate now stands at 6.3 per 100 workers. This represents a drop 
of 43 percent since 1973, the ninth decrease in the past 10 
years. And although that is good news, there are also 
indications of work to be done. In 1999, BLS reported that 
there were 5.7 million injuries and illnesses in American 
workplaces and more than 6,000 workers were killed on the job. 
That is still far too many.
    For OSHA in fiscal year 2002, the President is requesting 
$426,000,000, a slight increase over 2001, and 2,292 full-time 
equivalents.
    Finally, in fiscal year 2002, MSHA is proposing a budget of 
$246,000,000 and 2,310 full-time equivalents. The request is 
critical to our mission of protecting miner safety and health 
and will enable the Agency to focus on activities designed to 
reduce work-related deaths, injuries and illnesses in the 
mining industry. MSHA's program to improve miner safety and 
health integrates all the tools contained in the Federal Mine 
Safety and Health Act of 1977. Under this administration, we 
will work with the mining community, industry, and labor to 
continue to reduce the number of injuries and illnesses 
experienced in the mining industry and protect our industry's 
most precious resource: its miners.
    The preventive effects of MSHA's inspection activities are 
enhanced by the education and training in other outreach and 
compliance assistance activities. For example, Agency personnel 
are currently engaged in a multistate effort to raise miners' 
and mine operators' awareness of safety hazards. During this 
drive, MSHA will visit more than 1,600 mining operations to 
share causes of accidents and how best to avoid them. As 
Secretary Chao has stated, with this emphasis on prevention, we 
believe that we can save lives and help the mining community 
avoid occupationally-related injuries and illnesses.

                               Conclusion

    In conclusion, the efforts of workforce protection agencies 
at DOL are central to the lives of every working American. Our 
mission is to make people's work better, safer, fairer and more 
rewarding. We at the Department's workplace protection agencies 
are proud to be accomplishing this mission.
    Mr. Chairman, that concludes our testimony. We will be glad 
to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                           WORKER PROTECTION

    Mr. Regula. Thank you. I know that the Committee members 
will have questions. Of the foremost in mind at the moment--I 
am pleased to hear you say that you are trying to take a 
proactive position to help prevent accidents. Do companies 
invite your staff people to come in and just do an overview of 
how they could improve worker safety?
    Ms. Combs. I would defer to Davis Layne, the acting 
Assistant Secretary for OSHA.
    Mr. Layne. Mr. Chairman, we have a number of programs that 
are available to assist employers in reducing injuries and 
illnesses in the workplace. Our premiere program is one that is 
called voluntary protection programs. Right now--between 
Federal and State plans--there are over 700 employers that are 
in this program. And it is designed to recognize those 
employers that have exemplary safety and health programs, and 
they go on to mentor other employers. And they are recognized 
by the agencies for their initiatives.
    The other program that we have is a consultation program 
that is available through the States, that we fund at 90 
percent of the cost. It is free. It is designed specifically 
for the smaller employers, and we fund the programs up to 90 
percent of the cost. The advantage to that program is that the 
consultants who go through the same type of training that our 
OSHA enforcement staffs go through can actually go onsite and 
assist an employer in identifying unsafe or unhealthy working 
conditions. And then that report--that information is not 
passed on to us.
    In addition, we have a number of excellent Web-based 
programs where we have electronic advisers--it is like Turbo 
Tax. You can sit down, log on to the program, and it will walk 
you through the particular hazards for your industry. We even 
have others where you can actually go in, and you will see an 
operation that is going on, and you can focus in on it, you can 
move up, you can ask questions about it. So there are many, 
many programs that are available to assist small employers.

                             MINING SAFETY

    Mr. Regula. We do the same thing in the mining industry?
    Mr. Lauriski. Well, ours is just a little bit different, 
Mr. Chairman. We do have compliance assistance programs; one 
where an operator, regardless of size, can ask for assistance 
from the Agency to come in, particularly if it is a new 
operation or if they are using new technology or equipment. And 
the other side of that is that the Agency does a lot of 
outreach programs where they do actually go in the field and 
offer the compliance assistance or compliance with the 
regulation as well as to find ways to prevent accidents from 
occurring. Then we gain that knowledge from previous accidents, 
and we also gain that knowledge by working very closely with 
the operators in labor to help us identify issues that we can 
use for preventative measures.
    As Ms. Combs says, we are in an intensive process today, 
trying to reach about 1,600 mines and talk to those folks about 
the things that we have learned, and how we can help them 
prevent occurrences before they happen.
    Mr. Regula. Do you get any inquiries offshore? The China 
mine accident made me think about it. Do they gain from the 
knowledge that you have acquired in your Agency?
    Mr. Lauriski. We have a number of countries that we have 
agreements with, and I am not totally familiar with all of 
these yet. I have only been here a week. But I do know of a 
couple where we are working with other countries to help them 
curb some of their problems, particularly coal mine disaster.
    Mr. Regula. Mr. Wicker?

                  PREVENTION AND COMPLIANCE ASSISTANCE

    Mr. Wicker. Thank you very much, Mr. Chairman, and members 
of the panel. We are delighted to have you with us today. Let 
me just begin by following up on the point that my chairman was 
just touching on. The budget justification with regard to OSHA 
States, and I quote, The Department will put more emphasis than 
ever before on prevention and compliance assistance, not just 
after-the-fact enforcement, unquote.
    However, members of the panel, and Mr. Chairman, the actual 
Presidential budget cuts compliance assistance, and increases 
the budget for fair enforcement. I would have hoped the reverse 
would be the case, because it seems to me that most employers 
are trying to do the right thing; they are trying to comply 
with the law, and they realize that a healthy worker is a 
productive worker.
    However, the budget numbers seem to follow the idea that 
there is going to continue to be an adversarial relationship 
rather than helping employers do the right thing. So what is 
the justification for the cut in compliance assistance and for 
increasing the budget for enforcement, and will OSHA place a 
renewed emphasis on partnership programs aimed at working with 
industry, such as compliance assistance, education training and 
outreach?
    Mr. Layne. Yes, sir. The partnership program is an 
initiative that was started several years ago. It continues to 
grow, and we think that is also one of our more successful 
initiatives, since the voluntary protection programs got 
started in early 1980s. The partnership programs look for 
opportunities to work in a cooperative relationship with 
employers and organizations. For instance, we have partnership 
programs that are with Associated Builders and Contractors. We 
have a partnership program going on with the various States and 
employers that are involved in highway construction. The 
advantage to these programs is that it focuses in on everyone 
looking at ways to prevent injuries and illnesses in the 
workplace before OSHA gets there.
    Mr. Wicker. If I could interject, then. Would it be all 
right with you, then, if we plussed up the budget there on 
compliance assistance and decreased the President's request on 
enforcement? Don't you think that would be a good idea, based 
upon the budget justification which the President submitted?
    Mr. Layne. We looked at this, the reality is overall when 
you look at the total picture of compliance assistance, there 
is an actual increase in the various categories of compliance 
assistance. For instance, we had just recently added compliance 
assistance specialists in our Federal enforcement area offices 
across the United States. That is the first time that we have 
done that, and we are currently filling those positions.
    The enforcement increases are reflective of the costs that 
are associated with personnel. We actually have an overall 
reduction in our FTE of 95 FTE.
    Mr. Wicker. So that is the only area in which enforcement 
is increased, is the cost of personnel?
    Mr. Layne. In a broad category, yes, sir.
    Mr. Wicker. Okay. Well, I will be happy to sit down with 
you and look at the ways in which we could add it all together 
and find that compliance is actually increased rather than 
decreased.
    Mr. Layne. I would look forward to that, sir.

                        POULTRY INDUSTRY SURVEY

    Mr. Wicker. Let me move to Mr. Kennedy, and ask this. It is 
my understanding that there are efforts underway for the 
Department to conduct yet a third compliance survey of the 
poultry industry in less than 5 years. Like the past two 
surveys, survey No. 3 would focus on the poultry industry 
compliance with the Fair Labor Standards Act. I just wonder if 
a third survey is going to uncover anything new that was not 
developed in the first two surveys. And now I would ask you to 
comment on that, and then keep me apprised of developments as 
the ESA considers this issue.
    Mr. Joe N. Kennedy. Well, one of the things that is always 
important is to determine levels of compliance, and most of the 
efforts have been targeted at trying to determine levels of 
improvement over a period of time. Subsequent surveys have 
given indication of the amount of additional technical 
assistance that might be provided to the Agency, educational 
programs and outreach. One of the models that the Secretary has 
challenged us to use is to ensure that we provide education up 
front so that industry will have a better idea of what they 
should be doing as we move forward before using an enforcement 
model.
    Surveys are a good way for us to check to see whether we 
have been effective at identifying the levels of compliance, 
changes over periods of time. And that is one of the ways that 
we can certainly determine whether it is appropriate for us to 
step up our efforts or increase the technical assistance and 
compliance and outreach.
    Mr. Wicker. So do I understand from your answer that the 
division does intend to conduct a compliance survey? Can you 
say that that decision has been made or not?
    Mr. Joe N. Kennedy. I think until there is a permanent 
person appointed, final decisions may not have been made with 
respect to the poultry area.
    Mr. Wicker. Okay. Keep me posted on that. And, Mr. 
Chairman, I see that the lights are not on today and I perhaps 
have a question.
    Mr. Regula. Go ahead.

                              MINE SAFETY

    Mr. Wicker. Okay. Just a quick question concerning mine 
safety. I understand that there is pending a hazard 
communication interim final rule, and that this rule 
incorporates by reference both the current and future threshold 
limit values of the American Conference on Governmental 
Industrial Hygienists as to substances deemed hazardous. There 
is a concern out there that this is an improper reliance on a 
quasi-governmental organization which is not accountable to 
Congress, and that in so incorporating, the Administrative 
Procedures Act and the Federal Advisory Committee Act may have 
been violated. Can you comment on that, and is MSHA taking any 
steps to make changes in this process and reexamining this 
particular rule?
    Mr. Lauriski. Well, thank you. As I said earlier, I have 
been here 1 week, and I have not yet had a chance to sit with 
staff to discuss the regulatory issues, including the interim 
HazCom rule. I am aware that the rule has been published, but 
at this point, with any kind of expertise, could not answer 
your question but would certainly be happy to get back to you 
in writing on that.
    [The information follows:]

    Currently, I am reviewing MSHA's entire regulatory agenda, 
including the hazard communication interim final rule, which is 
currently scheduled to become effective in October 2001. I 
would be pleased to advise you of our determination.

    Mr. Wicker. Thank you very much, and thank you, Mr. 
Chairman, for your indulgence.
    Mr. Regula. Mr. Sherwood?

                           BLUESTONE INDUSTRY

    Mr. Sherwood. Thank you, Mr. Chairman. I am Don Sherwood 
from Tunkhannock County, Pennsylvania. The Pennsylvania 
bluestone industry is very important in my district, and Mr. 
Lauriski, I would like to discuss with you how MSHA is 
attempting to regulate that industry and ask you about your 
outreach.
    Let me give you a little history. It is basically a farming 
area, but as farming has become less profitable and timber 
operations have suffered at the hands of Brazilian pulp 
imports, a lot of these family operations have turned to 
palletizing their stonewalls and selling them--palletize them, 
ship them on a truck to New York or Philadelphia, and they are 
sold for decorative stone. We also have a bluestone industry, 
where sedimentary stone is quarried, and it is done in very 
small operations normally, one and two men, usually father and 
son, or a couple of brothers. There are a few people that are 
into that in a bigger way. In the last 2 years, MSHA has seemed 
to recognize that that industry is there and have been 
attempting to regulate it.
    And my experience in doing business with those folks and 
talking with them is that we need to look at this. We have 
situations where if they are palletizing their stonewalls, they 
can be arrested, because they don't have speed limits posted on 
their farm roads. If there are two men working, they can be 
fined if they don't have a stretcher, so if one got hurt, the 
other one could carry them out on a stretcher. I mean, things 
that don't make too much sense to a layman.
    The thing that bothers me is not that we are trying to 
improve the safety of the workplace, we all know that we need 
to do that. But I am wondering if your inspectors have been 
given any courses about the bluestone industry. We so often 
have a man that came out of a coal mine, and it is an entirely 
different situation. And I would think we would be more 
effective if we would have a concerned effort to explain to 
these people safe procedures and what they should be doing, 
rather than coming in and the very first time an inspector hits 
a farm, somebody gets fined.

                         PENNSYLVANIA BLUESTONE

    Mr. Regula. Will you yield to me?
    Mr. Sherwood. Yes, sir.
    Mr. Regula. For the edification of the chairman, tell me 
about the bluestone industry. That is a new one for me.
    Mr. Sherwood. Well, the Pennsylvania bluestone industry, if 
you will--if you will know--have you been to New Orleans and 
seen where all those courtyards are paved with the die square 
paving stones?
    Mr. Regula. I haven't noticed.
    Mr. Sherwood. They came from northeastern Pennsylvania, and 
so many of the window sills, the stone window sills that you 
see on buildings and the stone treads, they come from 
Pennsylvania.
    Mr. Regula. Is it a hard stone?
    Mr. Sherwood. Yes. It is a----.
    Mr. Regula. Is it like slate, only thicker perhaps?
    Mr. Sherwood. Yes. It was an inland sea at one time and it 
was laid down in sedimentary layers, and they lifted out in 
layers, often this thick, for paver stones. And then if you get 
a seam that is thicker, they make treads. And now, of course, 
they sometimes take the blocks out and cut them with big saws 
to any size that you need.
    Mr. Regula. So it is all open pit?
    Mr. Sherwood. Oh, yes. And very small operations. Usually a 
farmer has a quarry in the back of his farm somewhere, and when 
they are not haying or milking cows, they get out a little 
stone.
    Mr. Regula. Well, thank you.
    Mr. Sherwood. As the country has become more prosperous, 
this has become a bigger business. As farming has declined, it 
is another way for these folks to make a living. They also pick 
up and palletize a lot of the stone that has been carried off 
the farm fields over the years and has become washed off by the 
rain and has a little moss on it, they palletize that and send 
it to the States and the cities to make new stone walls.
    Mr. Regula. Do they have to take cover off, or is it pretty 
close to the surface?
    Mr. Sherwood. It could be either, Mr. Chairman. Lots of it 
runs very close to the surface, but there are some--there are 
some quarries that move some cover also.
    Mr. Regula. Thank you.
    Mr. Sherwood. But this palletizing and shipping the field 
stone is just an agricultural operation. And I wonder what you 
can tell me about your outreach to these folks and your efforts 
to have education rather than enforcement.

                         MINE HEALTH AND SAFETY

    Mr. Lauriski. Well, thank you for your question. First let 
me say that the Mine Act provides that we do three basic 
things. One is to enforce the rules to provide protection for 
miner health and safety. One is to provide technical 
assistance, including compliance assistance for mine operators 
and miners. And the third is to provide education and training 
for miners and mine operators.
    We have, as I understand, provided a number of compliance 
assistance visits, at least two Office of Compliance Assistance 
visits in the northeast district of Pennsylvania to the 
operators. What typically happens, here is an operator who 
requests a compliance assistance visit, to have MSHA come in 
and assist them with understanding the rules and the 
regulations on a one-time basis before an inspection is done. 
Typically MSHA would inspect an operator's mine, identify any 
issues that were outstanding, and then discuss those violations 
of the regulations and their application to that particular 
operator's mine, and they would issue what is called a 
nonpenalty notice of violation. It is a free opportunity for an 
operator to take advantage of getting some education and some 
assistance from the Agency before enforcement action is taken.
    The Agency began offering these visits about a year ago, 
particularly in the northeast region of Pennsylvania. And then 
once that is done, then the operator is then subject to 
enforcement action and compliance requirements under the Mine 
Act.
    We have also spent a great deal of time in the past year 
with our outreach programs to try to alert bluestone operators, 
as well as other operators in the stone and quarry industry--
sand and gravel industries, for example--as to MSHA 
requirements. There were new standards that were put into 
effect a year ago, became effective actually in October of last 
year, called the Part 46 training requirements, that required 
operators who had previously been exempt, such as bluestone 
operators, to begin health and safety training for their 
miners.
    MSHA conducted meetings around the country on that Part 46, 
and in fact meetings were conducted on several occasions in the 
northeast district of Pennsylvania to deal with the Part 46 
regulations as well as other questions that may have been asked 
regarding compliance assistance.
    I am aware of two citations being issued to bluestone 
operators in Pennsylvania; one for not having adequate first 
aid equipment, and one for not having a stretcher in a two-
person operation.
    And I appreciate your question. However, let me say this. 
The Mine Act has been a very effective act in preventing miners 
from getting hurt. We have seen a tremendous improvement in 
worker safety in the mine since the act was put in in 1977. And 
one of the things about this is we realize that the small 
operators are indeed concerned, but injuries don't discriminate 
or illnesses don't discriminate based on size of operation. And 
so we have to be very, very concerned that we apply these 
standards across the board, regardless of size of operation.
    There are provisions in the act when it comes to penalties, 
that the act provides opportunities for small operators to 
appeal certain dollar figures if it, in fact, has a bearing or 
an impact on their operation.
    So we are trying to be very proactive in our approach in 
offering this assistance. A lot of operators have asked for 
that assistance, and we would be happy to go back to northeast 
Pennsylvania and do some more outreach, if that is something 
that is an issue with you.
    Mr. Sherwood. Would you please provide for me a list of the 
citations that you have issued since you started this, and the 
list of contacts by name that you have made for outreach and 
education?
    Mr. Lauriski. Certainly.
    [The information follows:]

    As you know, MSHA is required to inspect surface operations 
twice a year, and, if violations are found, issue appropriate 
citations. The agency's records for FY 2000 and FY 2001 through 
March indicate that MSHA inspection staff has issued about 140 
citations at almost 50 operations. In addition, MSHA has a 
Compliance Assistance Visit (CAV) program. Under this program, 
mine operators can receive a ``penalty-free'' CAV if certain 
criteria are met. MSHA's data show that the agency has 
conducted more than 140 CAVs at about 100 Bluestone operations, 
and issued more than 400 non-penalty CAV notices.
    With respect to MSHA's outreach activities, I am advised 
that there have been numerous meetings and contacts with 
Bluestone operators, both in Pennsylvania and New York. These 
contacts have included industry and MSHA workshops, meetings, 
seminars, an industry EXPO and individual meetings with 
Bluestone operators to discuss the agency's Part 46 training 
rules. The Part 46 rules were developed with industry and labor 
to address the specific training needs of surface nonmetal 
mining operations.

                      HEALTH AND SAFETY OF MINERS

    Mr. Sherwood. I would certainly like to compare those. And 
you said these--and I will use your word. I don't like to use 
the word ``miners,'' because I don't consider them miners, but 
I will use your word. You said these mines were previously 
exempt.
    Mr. Lauriski. From the training requirements, that is 
correct. From having to provide health and safety training to 
the miners. They were exempt up until October of last year from 
those requirements. Sand and gravel, stone quarries, clay, all 
these were surface operations, and previously not had the 
requirement to do training. Under the previous standards known 
as Part 48, mine operators in the metal, nonmetal community, 
and the coal community were required since 1977 to provide this 
training. That segment of the industry has not had the same 
requirement until October of last year.
    Mr. Sherwood. How was the decision made to classify farmers 
who are picking up their stones that are laying on the ground 
in stone walls and in piles and palletizing them on wooden 
pallets to be shipped out, how was it decided to classify that 
as mining?
    Mr. Lauriski. Well, I don't have the Mine Act in front of 
me, but that is defined in the act itself, what constitutes a 
mine; and because of the type of extraction that they utilize, 
they in fact would be classified under the Mine Act as a mine.
    Mr. Sherwood. Well, my English is limited, but I can't--I 
see a definite--it is more like agriculture to me than mining, 
and I would like to know how that interpretation was made.
    Mr. Lauriski. I would be happy to provide that for you.
    [The information follows:]

    MSHA's responsibilities and authorities stem from the 
Federal Mine Safety and Health Act of 1977 (Mine Act). Section 
3 defines a mine for purposes of the Mine Act, and Section 4 
clarifies which mines are subject to the Mine Act. I have asked 
MSHA staff to review the Bluestone mines to ensure that the 
agency is exercising its authority appropriately.

    Mr. Sherwood. And I asked the Secretary yesterday if you 
and I could have a meeting.
    Mr. Lauriski. Certainly. I would be happy to do that.
    Mr. Sherwood. Because this is of vital interest to a great 
deal of my constituents, and I would like to develop it 
further.
    Mr. Lauriski. We would be very happy to do that.
    Mr. Sherwood. Thank you very much, Mr. Chairman.
    Mr. Regula. Mrs. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman. And I would 
like to join the chairman in welcoming the panel and wish you 
good luck on your very important mandate and all the important 
work you are doing, and we look forward to working with you.

                              OSHA FUNDING

    I know the chairman talked a little bit about OSHA and the 
numbers in the budget, but as you know and has been mentioned, 
the budget level funds OSHA with reductions. OSHA is the only 
agency, as we know, that works to protect the American 
workforce from undue injury.
    And this is directed to Mr. Layne. Avoiding these injuries 
not only protects workers but increases productivity and 
decreases medical costs for employers. If you could explain to 
me or to us the rationale for a reduction in OSHA staff, have 
the numbers of injuries in the workplace decreased, knowing how 
important this Agency is?
    For as long as I have been on the committee, I have seen a 
real effort on the committee to work with employers, work with 
everyone involved in really trying to make the process work so 
much better. Could you explain to me how you are going to 
fulfill the mandate with the reduced budget?
    Mr. Layne. Yes, Congresswoman. And I agree with you. 
Through all of us working together is the reason that I believe 
that there has been a significant reduction in the overall 
injury and illness rates through the years. In our budget, our 
enforcement level actually maintains the same number of 
inspections that we have had over the last several years, 
around 34,000.
    Mrs. Lowey. Which is never good enough. Maybe someone can 
help me. Did you--well, you probably know. It is one end that 
you managed to look at.
    Mr. Layne. But what we have developed over the last several 
years through OSHA's data initiative is the ability to collect 
our site-specific information from employers. And then we 
target our general schedule enforcement inspections toward 
those employers that have the highest injury and illness rates. 
And that level of enforcement in our budget for 2002 projection 
remains the same. The reductions in the overall FTE in our 
compliance program are directed toward the supervisory and 
management areas. There are actually no cuts in our front-line 
compliance officer staffs.

                         COMPLIANCE ASSISTANCE

    Mrs. Lowey. Well, one of the things that I have been very 
impressed with in the last few years is the real outreach 
effort to employers. I mean, most employers really want to 
comply, and you are just talking about a handful that may not 
want to comply. And what OSHA was really doing is reaching out 
to these employers to make sure they understood the rules and 
regulations so that they could comply.
    Perhaps this needs further discussion, but as I looked at 
the budget, it seems to me that there was a reduction, and I 
wondered how you were going to continue this aggressive 
outreach. Now, you said you will be--I hope you will be able 
to--and if you are satisfied with the reduction in the budget, 
I congratulate you, and I hope that you will be more efficient 
and be able to do the job and reach out to employers and make 
sure they understand the rules and regs so that we can prevent 
the injuries from actually happening. And I look forward to 
hearing a response on that.
    Again, in looking at the numbers again, if you want to 
comment further, will you be able to continue that outreach?
    Mr. Layne. I----
    Mrs. Lowey. You feel there is enough money to continue the 
outreach and expand the outreach to as many employers as you 
can so you can avoid some of the workplace injuries?
    Mr. Layne. The Secretary has indicated her emphasis on 
prevention and how important it is that employers develop 
programs that reduce and eliminate hazards in the workplace, 
and I believe that our budget will support her desires.
    Mrs. Lowey. Well, good luck to you. With less staff, I hope 
you will be able to perform additional outreach, and I hope you 
can be an example of efficiency for the entire government. I 
wish you could----
    Mr. Layne. I would like to do that, very much.
    Mrs. Lowey. One other quick question, Mr. Layne. The 
previous administration at OSHA started a program to write 
regulations in plain English so that both employers and 
employees understand them. I would be interested in your 
comment on whether the current administration has plans to 
continue that program.
    Mr. Layne. Well, that would continue to be a part of our 
outreach and training and education initiatives. For instance, 
we have initiatives to reach those workers that may not always 
have access to formal safety and health programs, the hard-to-
reach workers. And a part of that is presenting worker safety 
and health information to both those employers and employees in 
a format that makes sense to them and is understandable. And we 
certainly will continue that.

                            PENSION BENEFITS

    Mrs. Lowey. Thank you very much. And lastly, Ms. Combs, 
there has been much discussion about companies converting from 
defined benefit plans to cash benefit plans. This conversion 
tends to hurt older workers, because it reduces their benefit. 
But my question is, is it better for young employers in the 
long term, and what will PWBA do to ensure that older workers 
in the United States are not unduly harmed by these 
conversions?
    This is an issue that has come up many times in my 
district, and you really see the difference in the point of 
view from the older workers and the younger workers. And I am 
concerned about how do we protect the older workers.
    Ms. Combs. I think you are right, Mrs. Lowey. The cash 
balance conversion is a very important issue to older workers, 
and longer service workers really are those who are most 
affected.
    One of the things I think that is important to keep in mind 
is one of the strengths of our pension system, which is 
voluntary, is that it allows employers the flexibility to 
design a plan that meets the needs of their workforce, and many 
of them are converting from a traditional defined benefit plan, 
which tends to reward long-service workers, to hybrid or cash 
balance plans which are more neutral, and people who have 
shorter tenures. I think the challenge really is what to do 
with people who are kind of caught in the transition. And 
PWBA's role in this really is to make sure the people have 
adequate information about what is happening to their benefits 
so that they can make informed choices and are aware of what is 
happening in terms of their own benefits under their prior plan 
and benefits under the new plan.
    We have been working with others in the community and with 
Congress to develop appropriate reporting and disclosure 
standards, and I know that there is language in the current 
pension reform legislation that has been passed by the House 
and is under consideration in the Senate to enhance supporting 
a disclosure. And that would be our mission, to make sure that 
people have adequate information.
    It is an issue where we work closely with the Treasury 
Department and the IRS, the EEOC. They all also are involved in 
this whole trend.
    Mrs. Lowey. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Regula. Ms. Pelosi for 10 minutes.

                              OSHA BUDGET

    Ms. Pelosi. Mr. Chairman, I don't know about this. I think 
I will move down. I want to join you in welcoming our witnesses 
here today, Mr. Chairman, and proceed with my questions. I was 
listening when Mr. Wicker was--if you didn't hear me, I want to 
join our chairman in welcoming all of you today. My questions 
will be directed to Mr. Layne, but any of you are invited to 
chime in, of course.
    Following up on some of what Mr. Wicker was asking, Mr. 
Chairman, I want to--I am looking at the budget page of OSHA, 
and on compliance--well, bottom line of it, 94--a cut of 94 
FTEs, an increase in the budget of $449,000. It is really hard 
to see how we can meet the challenges of safety in the 
workplace in that scenario.
    But I am particularly concerned about the compliance 
assistance, because that is a place we get right to the heart 
of the matter to help business have better safety in the 
workplace. And while I see a small $1,300,000 increase in the 
Federal technical assistance management, that it represents a 
cut of 10 FTEs in that area. So I am concerned about that. But 
I am distressed about the cut in the training grants, a cut of 
$3,000,000 in the training grants. I don't know how we can 
improve safety in the workplace unless we are investing in 
training and safety programs.

                          SUSAN HARWOOD GRANTS

    I am particularly disappointed because of the 
administration's decision in March to withdraw $4,800,000 in 
OSHA grants for worker safety programs. California Federation 
was one of 19 organizations that had already been awarded--now, 
this is the circumstance, Mr. Chairman. Picture this in your 
district. In January, they get a letter saying that they have 
received this grant to develop and conduct a training program 
on how to create an effective health and safety program, 
including basic workplace safety and health principles, laws, 
and problem-solving.
    In March, they get a letter saying never mind.
    Mr. Regula. Who is ``they''?
    Ms. Pelosi. The recipients of the grants.
    Mr. Regula. Or the----
    Ms. Pelosi. Or the California Federation of Labor in this 
case. In January your constituent gets a letter saying you have 
a grant of X amount of dollars. One of these is, like, $210,000 
to do this workplace safety; a couple of employees to help with 
the workplace safety.
    In March, when you have done your planning and you are 
moving ahead, in March you get a letter saying we are going to 
rescind this. The withdrawal of these grants is particularly 
troubling in light of the administration's vigorous support for 
the repeal of the ergonomics rule and calls into question, in 
my view, the administration's commitment to a voluntary 
approach to improving workplace safety. Since the 
administration opposes regulations to protect workers from 
ergonomic injuries that had been passed down, a voluntary 
training--these kinds of training programs become very, very 
important.
    Now, what is also concerned is that when these letters were 
sent out in March to rescind these grants for training, they 
were informed that budgetary circumstances made it necessary to 
rescind these funds. I have to question the judgment of whoever 
established the priorities to withdraw these not very 
significant funds, as far as the Federal budget is concerned, 
but very significant in terms of a workplace safety in these 
areas, and especially when the grants were made and 2 months 
later rescinded. I mean, how unprofessional is that?
    So it seems to me that on every front, whether it is the 
ergonomic rule or the funding of grants for these voluntary 
programs, the administration wants to pull the plug on worker 
safety in this country. That can't be true, right? It can't be 
true. It must be part of their value system that we want safety 
in the workplace, if for no other reason than the business 
case, that it saves money, forgetting what it means to the 
individual workers.

                            WORKPLACE SAFETY

    So my first question is what is the administration's 
rationale for reducing its commitment to voluntary workplace 
safety programs? It seems to me if this were a priority, there 
would certainly be the $4,800,000 available from the current 
funds, and future surpluses found in the program for the full 
5-year commitment that was originally made by OSHA.
    Mr. Layne. There are a couple of issues I would like to 
share with you. First of all, the Secretary has indicated that 
this year's funding for the grants at some $11 million will 
absolutely be distributed. We have been----
    Ms. Pelosi. Let's stop at that point. They will actually be 
distributed, so new letters will go out to say that what we 
rescinded will now be reversed?
    Mr. Layne. We made contact with the various grant 
recipients of that round of grants, which we refer to as long-
term grants, 3 to 5 years.
    Ms. Pelosi. Yes.
    Mr. Layne. Traditionally in the past, going back a couple 
of years, or the history of the Agency, our grant program had 
been basically 1 year, with the opportunity to extend for 
another year. In this instance, we felt that in the long run, 
we could not make that type of a 3- to 5-year commitment to 
grantees. We did indicate to them that we would be reannouncing 
the grant competition, encouraged them to reapply under our 
short-term training grant program, and that we felt that the 
way the Federal Register notice went out, that the recipients 
of those grants would still be very competitive under the 
criteria for the short-term grants. And that Federal Register 
notice went out April the 18th. The application process is open 
until June the 15th, and we anticipate that we would make the 
grant awards the end of August, middle of September.
    Ms. Pelosi. Well, I just hope that the safety is not 
impaired in the course of doing your administrative work. If 
you wanted to rethink these programs down the line, it seems to 
me it would have been appropriate to do them in the outyear 
rather than rescinding what was already in the works now.
    Mr. Chairman, I don't like to take up the committee's time 
with something that is specific to my area, except that it is 
illustrative of the point that I want to make of the concern 
that I have about this administration's interest in workplace 
safety.

                               ERGONOMICS

    And so I want to get to my main question, which is: 
President Bush signed into law the joint resolution of 
disapproval on the ergonomic standard, despite overwhelming 
evidence that the standard would protect workers from crippling 
work-related injuries, reduce cost, improve productivity. 
Specifically, what was the administration's objection to this 
standard? I asked the same question to the Secretary yesterday, 
because all these statements had been made: We want to have a 
workplace standard.
    Well, okay, if you object to this one, what are your 
objections? What is OSHA's estimate of the cost of 
musculoskeletal disorders to the national economy? OSHA has 
estimated $10,000,000,000 in the past. This figure was 
confirmed by the Institute of Medicine in the January report. 
What does OSHA estimate the ergonomic standard would have cost 
business annually? OSHA has estimated $4,500,000,000, but it 
would have been a savings, an investment--many in business have 
voluntarily adopted these standards, saved money, improved the 
morale of their workforce and, of course, improved their 
safety.
    What does OSHA estimate the annual benefits of the 
ergonomic standards would have been? OSHA has estimated that it 
would have generated $9,000,000,000 in benefits each year by 
preventing musculoskeletal disorders over the next 10 years. Is 
there any evidence that both regulated industries and OSHA have 
a history of overestimating the cost of--I will put all these 
questions on the record, Mr. Chairman. I did some of them 
yesterday with the Secretary, because I was not getting an 
answer to my question.
    But this question I do want an answer to here, and that is 
the question I asked the Secretary yesterday. What is the time 
line that has been established by this administration for 
another ergonomic standard to be put forth?

                            ERGONOMICS PLAN

    Mr. Layne. The Secretary in her testimony has indicated 
that the ergonomics issue in the workplace is one that is 
complex and complicated, and indicated that these are real 
problems for workers. She has indicated that she wants to take 
a very broad, comprehensive approach to address the ergonomic 
issues in the workplace and try and have an opportunity to get 
all of the stakeholders informed, to come to some common 
understanding of the best way to proceed. She has indicated 
that at this time, she just feels that it is premature to 
identify a time line.
    Ms. Pelosi. Well, that is really--that is very disturbing, 
sir. I will tell you this has been going on for 10 years, and 
the stalling tactics have been going on for the past 4 years, 
of studies of studies of studies, of conferences of studies, as 
I mentioned yesterday, and reviews of studies, studies called 
by those who oppose the ergonomic standards. And because the 
result of those studies has not turned out their way, then to 
resort to the nuclear weapon of a Congressional review--an 
administrative act. So I think that this is a very 
disappointing answer.
    Secretary Dole, 10 years ago, said to create this standard 
would be her highest priority. Ten years later, you give me an 
answer without any kind of chronology, and you destroy hope. 
And I am very disappointed.
    And my time has expired. Thank you, Mr. Chairman.
    Mr. Regula. Well, you have some additional time, if you 
have any----
    Ms. Pelosi. If the gentleman would like to respond?
    Mr. Layne. Well, it is an issue for the Secretary. We have 
had opportunities to meet with her and the various interested 
groups outside of the Department of Labor, figure out which is 
the best way to proceed. She has indicated that it would not 
make sense for us to go in a direction that is forced, and 
possibly end up in the same situation as we were earlier. She 
has clearly said this is a high priority for her and that she 
feels that there are many approaches to addressing ergonomic 
hazards in the workplace and that she has this as a high 
priority for her.

                          WORK PLACE INJURIES

    Ms. Pelosi. We have people who are not able to pick up 
their children because of workplace injuries. We have people 
who do this all day for 8 hours a day, and if we did it the 
whole time you were testifying there, you would have a little 
sympathy for their situation as they are cutting off a wing of 
a chicken or something all day long. We have people who can't 
open up peanut butter jars to serve their children lunch. We 
have had testimonies--testimony, testimony on top of testimony 
about this. So wherever you stand on it, there has to be a 
moment where you freeze the design on the collection of 
information, or else government would be the most useless 
object that you could name, instead of a resource for safety in 
the workplace for the American worker and the American people.
    So if you have it as a priority--and I heard that word--
then you would say if we want to have it in this 4 years--let's 
give worst-case scenario, this 4 years, I suppose. And even 
worst-case scenario would be to say 8 years. But let's just say 
this 4 years. Then how do we get back to this 4 years?
    We have to take the first step. A decision has to be made. 
These studies have been made over and over again. The stalling 
has been going on for years in this committee, contrary to the 
wishes of the chairman of our committee, Mr. Livingston, and 
Mr. Obey, who signed letters saying nothing is to stand in the 
way of proceeding with the ergonomic standard as we take these 
studies.
    So my point is, we are sounding very irrelevant to the 
problem when we say it is a priority, but we just got to get 
more information. Get it. There is a standard. You don't like 
it; critique it, make another suggestion, but do something 
about it. I mean, this endless pursuit of information is 
exactly a decision not to do something about it.
    And forgive me, Mr. Layne, for your bearing the brunt of my 
concern, but we have been going on for this for years and years 
and years, and we have been hearing the same thing for years 
and years. But I would think that if there was something that 
this Congress decided to vote down, they must have had a 
reason, with this administration's encouragement.
    So what is your counter to that? And this stalling is just 
appalling. I think, Mr. Chairman, that I--I really don't want 
to be discourteous to our guests, so I think I will stop right 
there. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Layne, if you like, you can submit an 
answer for the record, however you would choose to do this.
    Mr. Layne. Thank you, Mr. Chairman. I will do that.
    [The response follows:]

    We understand your concern and want to be sure that we 
enable employers to make their workplaces safer for workers. 
Defining the best and most comprehensive approach to ergonomics 
is not a simple process. It will take time. There are many 
difficult issues to consider. For instance, identifying many 
ergonomic injuries and establishing causality requires 
considerable investigative resources. To deal with complex 
issues we need the best possible advice.
    On June 7 the Secretary announced that she would convene 
three national public forums on ergonomics safety and will 
identify a final course of action by September 2001. The forums 
which will be held in Washington, DC., Illinois, and 
California, are designed to allow everyone who is interested in 
this issue to be heard. This will enable the Department to make 
an informed decision on the direction to take for ergonomics.

    Mr. Regula. Okay.
    Ms. Pelosi. Thank you.
    Mr. Regula. I want to say to the Committee Members--then I 
will come back to you, Mr. Sherwood--that each year we expect 
the agencies in our jurisdiction to give Members and staff 
copies of testimony in advance. In this case we didn't receive 
the Department's testimony for today until 7 o'clock last 
night, and it made it difficult to prepare for the hearing. I 
apologize to the Members for this inconvenience, and you have 
assured, I think, my staff that you will get your future 
testimony on a timely basis. And I realize you are all sort of 
thrust into this role on rather short notice, and I see on all 
the name plates ``acting'' and acting and so on, and we 
recognize those problems.
    Ms. Combs. I appreciate that, Mr. Chairman, and we do 
apologize for the inconvenience.
    Mr. Regula. Mr. Sherwood, do you have additional questions?

                              VPP PROGRAM

    Mr. Sherwood. Thank you, Mr. Chairman. I just had the 
distinct pleasure to participate in Taylor Beef's being 
designated a star site in the VPP program for OSHA. And that 
was very illustrative to me of the progress that can be made 
in--some would say--a fairly dangerous industry, by working 
with a voluntary program, with OSHA and the goals, the progress 
they have made towards worker safety. And I just think that is 
a great program.
    I was very pleased to have the third organization in my 
congressional district become a star site. I would like to see 
if there was a little correlation between OSHA VPP and MSHA. 
Maybe we could become successful with some programs of that 
nature in MSHA; because I am very concerned that our real goal 
is worker safety. Too often we end up, instead of promoting 
worker safety, slowing down commerce. And that was not the 
experience at Taylor Beef with the VPP program.
    I thought that to be a very enlightened discourse in 
accommodation between OSHA and the people that run that 
company, and it was from the chief executive all the way down 
to the people on the floor in an organization that employs 
about 1,200 people. It was just very impressive to see the 
interest and the commitment of all those employees to better 
safety and how well it worked.
    I am just contrasting that in my mind to the talk I get in 
the same little area from my bluestone operators, and I realize 
it is a different industry. I mean, here we had 1,200 people 
under one leadership; and the bluestone industry is very 
diverse. So I realize it is much harder to manage. But I would 
like to ask if there could be any corollary between those two 
programs and if we could make some progress that way.
    Mr. Lauriski. Well, I am not familiar with the program, and 
I am more than happy to talk to Mr. Layne about that and to 
you.
    I can tell you I have a great deal of concern about how 
this industry continues to improve. We have seen a dramatic 
improvement in miner safety over the past 30 years in coal and 
in the past 25 years in all mining, but we have also seen the 
levelling and the plateauing of the incident rate and the 
fatality rate, and we saw a nice downward trend in the previous 
years.
    We have an extreme challenge in front of us, and one of the 
ways that I envision us attacking that challenge is to be 
creative in our approaches and that perhaps could be something 
that we would definitely look at in being able to accomplish a 
downward trend in reducing the number of accidents and injuries 
and facilities in our business. It is something I would look 
forward to talking with you about and hearing more about the 
program that OSHA has in place.

                         COMPLIANCE ASSISTANCE

    Ms. Combs. If I may, Mr. Sherwood, just add, I am also not 
familiar with the VPP program, but the Secretary has indicated 
a commitment to increasing compliance assistance across the 
board for all the enforcement agencies. As part of that, one of 
the things we are charged with is learning from one another and 
becoming familiar with what is working well at various agencies 
so that we can all benefit in general without speaking to that 
program specifically.
    Mr. Sherwood. We have a good historical example in 
Pennsylvania with that. We used to have a DER, a Department of 
Environmental Regulation, and then we changed to DEP, 
Department of Environmental Protection, and with that change 
under Governor Ridge the shift went from fines to education, 
and we are getting lots more done. We really are. And that is, 
when you deal with these, regulating bluestone producers is a 
little bit like regulating farmers. It is a very difficult 
thing to do.
    But, with agriculture, the education of farmers in how they 
work to be better stewards and take care, make better water 
quality and all of those things has been very successful; and I 
think we can be successful in the bluestone industry if we go 
at it from an education point rather than walk in with a big 
stick all the time.
    Thank you.
    Mr. Regula. Just to follow up on Mr. Sherwood, do you have 
websites and 800 numbers, the kind of thing that allows the 
public to seek information?

                       PWBA COMPLIANCE ASSISTANCE

    Ms. Combs. I will speak. I think we all do, but speaking 
for the Pension and Welfare Benefits Administration we do have 
a very well-developed Web site. I think, in fact, just this 
morning we went up with a compliance assistance link on our 
main page which can then take you to descriptions of all the 
activities and the services available, brochures, public 
outreach, how-to guides. And they are broken down for small 
employers, for participants, for employers and fiduciaries. So 
that is an effort to pull it together into one place so that 
people can go and have a common site to try to get some help.
    We also have a program of benefit advisors who are 
employees who help participants in benefit plans with their 
questions, and we are beginning to implement an 800 number for 
that purpose which is being brought out slowly so that we can 
manage it.
    We also have a very active system in helping employers with 
reporting responsibilities, and there is an 800 number and a 
help desk there to answer their questions about how to file 
their annual reports with the hope that if we can help them get 
the information in and correctly the first time that will 
prevent having to come in after the fact with fines and 
investigations and free us up to go after enforcement 
activities where we think we can really make a difference.

                       OSHA COMPLIANCE ASSISTANCE

    Mr. Layne. Mr. Chairman, yes, sir, we have a number of 
resources available to us. We have what I believe is a very 
excellent and friendly Web site that has links to various 
safety and health organizations across the United States. In 
addition, we have 1-800 numbers that are available and are on 
our posters that are displayed in the workplaces.

                             MSHA WEB SITE

    Mr. Lauriski. Mr. Chairman, MSHA likewise has a Web site; 
and I was just handed a note that we had 4 million hits on that 
Web site last month.
    In my previous life I have had an opportunity to visit that 
Web site quite frequently. From my perspective, it is very 
impressive; and it is an evolving site that provides good 
information to miners and to the operators out there from an 
education and perspective standpoint, to compliance assistance, 
to an 800 number that they can call.
    Mr. Regula. Would there be an 800 number that Mr. 
Sherwood's bluestone operators could call, if it is a two-
person operation, to find out in a general way I guess what 
they need to do to be in compliance?
    Mr. Lauriski. The 800 number we have is a little bit 
different. It is what is called a Code-A-Phone number that 
allows miners to call in and lodge concerns about particular 
areas. There are opportunities for the bluestone operators to 
get in touch with the agency, and we will provide that to 
Congressman Sherwood when we provide information on his other 
request.

                        MINE SAFETY IMPROVEMENTS

    Mr. Regula. Is mine safety improving in this country? 
Historically, we have had some pretty egregious situations.
    Mr. Lauriski. Mine safety has improved tremendously in this 
country over the course of the Mine Act. In the last 5 years--
well, actually, in the last 10 years we have gone from 122 
fatalities a year down to 80 last year. And this year, knock on 
wood, we are sitting at an all-time low. We have had seven 
fatalities here to date in coal and 13 in metal on metal.
    So there has been a tremendous improvement in miner safety, 
but, as I said earlier, one of the concerns is that it appears 
that we have plateaued. We have leveled. And so the challenge 
that we have is to figure out how to put a downward trend back 
in both the fatalities and the occurrence of injuries and 
illnesses that we still have. That is going to take some very 
creative approaches and still being able to do the things that 
the act charges us to do. I envision involving to a high degree 
our stakeholders, if you will, labor and industry, and our own 
employees on helping me find ways to move the trend in the 
right direction and moving it off the level that we see today.
    But, to answer your question, yes, there has been a 
tremendous improvement.

                           MINING OPERATIONS

    Mr. Regula. You do all forms of mining in addition to coal. 
Would it be iron ore or cement?
    Mr. Lauriski. That is correct.
    Mr. Regula. There are a lot of different things that are 
extracted from the ground that would all be covered by MSHA----
    Mr. Lauriski. That is correct.
    Mr. Regula [continuing]. Whether it is open pit or slope 
mine or deep mine, in any form of mining; is that correct?
    Mr. Lauriski. That is correct.
    Mr. Regula. That is how--the bluestone is an open pit 
operation, I gather.
    Mr. Lauriski. Yes.
    Mr. Regula. Sometimes I would suspect employees in a 
punitive way would, try to report things to cause problems for 
employers because of some other difference they might have had 
with the employer. Do you try to evaluate that before you move 
into a heavy-duty compliance approach?
    Mr. Lauriski. Well, if the agency----
    Mr. Regula. I note all agencies here.
    Mr. Lauriski. If MSHA receives that sort of complaint, the 
agency has an obligation to follow through on that complaint. 
At the point of that, there is either a finding which--that 
would result in a notice of violation or there is a finding of 
nonnotice of violation. In either case, there are provisions to 
notify the operator and the people that provided the complaint, 
whether it was valid or whether it wasn't valid. But that 
requires MSHA to go on site, actually do an investigation to 
make that determination, and that it is an obligation that the 
act places upon us.

                       MSHA COMPLIANCE ACTIVITIES

    Mr. Regula. In hiring people to do both assistance and 
compliance, do you try to get individuals with some private 
sector experience, be it a bluestone mine, if that is their 
area, or be it an open pit coal mine. Do you get people out 
there that are doing these inspections and enforcement who have 
been in the real world for a period of time?
    Mr. Lauriski. I can't speak with a great deal of authority 
on that, but I do know that there is a requirement for industry 
experience and that when people are hired they are put through 
a very rigorous training program at a health and safety academy 
in Beckley, West Virginia. This takes upwards of about 18 weeks 
off and on through the course of the year until the agency is 
satisfied that they are confident to go out and perform these 
inspections.
    Mr. Regula. So they, therefore, would also be able to 
provide constructive ideas to a mining operation to ensure that 
they have accident prevention programs?
    Mr. Lauriski. That is correct, and that is part of the 
outreach we are undertaking today to do exactly that, as well 
as to solicit ideas from those who are in the mines and in the 
industry to help give us information about what they concede to 
help prevent accident and injuries, but that is correct.

                       OSHA COMPLIANCE ACTIVITIES

    Mr. Regula. Is the same true of OSHA?
    Mr. Layne. Yes, sir. Under the Occupational Safety and 
Health Act, any employee of an employer who wishes to file a 
complaint can do that.
    We oftentimes receive complaints where there is some 
element of that formal complaint missing or an employee says, I 
just want you to know about it; I don't want you to go out 
there.
    A number of years ago we developed a program called Phone 
and Fax that has met with considerable success for both for 
employees and employers. And if the complainant is willing we 
will take the information that they get, fax it to that 
employer, ask that employer to voluntarily report back to us 
about the results of their looking into those complaint items; 
and then we provide that information to the person that 
contacted us about alleged unsafe or unhealthful working 
conditions.
    But, clearly, under the Occupational Safety and Health Act, 
if an employee wishes for OSHA to do an on-site inspection, we 
will do that under the authority of the act.
    Mr. Regula. It would seem to me in previous years I used to 
get more complaints on these enforcement measures and, now you 
are balancing punitive with constructive activities on the part 
of your staff, would that be a fair statement?
    Mr. Layne. Yes, sir. We feel that there are a number of 
reasons that would cause that to occur, one of them being the 
approach we have taken on what we classify as nonformal 
complaints. A lot of the time we get a complaint from some 
person who was a former employee or does not--it could be we 
get them from a concerned citizen about maybe a trench or an 
excavation in the neighborhood that they are concerned about. 
They may be concerned about the kids, although we do not have 
jurisdiction over family members or the community, you know, 
that is information where we think the employer would want to 
know about. So we will try and get that, fax it to them and ask 
them to look into it.
    Or maybe we will get someone that will contact us and say, 
I don't want you to know who I am. I am concerned that if you 
find out that I will get into trouble or whatever. So the Phone 
and Fax system that we have developed is one that can address 
those types of conditions. But, clearly, if an employee wishes 
to file a formal complaint, we will do an on-site inspection.
    The other major change that we were able to initiate over 
the last several years is actually gathering site-specific data 
on individual work sites where we will target OSHA's resources 
on those places of employment that have the highest injury and 
illness rates and actually go to those.

                      OSHA ENFORCEMENT ACTIVITIES

    Historically, our enforcement plans over the years--and I 
have been with the agency since 1971--was that we took broad 
standard industrial classification codes that in themselves 
were high hazard industries, for instance, metal fabricating; 
and every employer in the metal fabricating business that was 
scheduled for an OSHA inspection--there are work sites in the 
metal fabricating business that have effective safety and 
health programs, low injury and illness rates versus the others 
that do not. But we didn't discriminate between them. You were 
in this category. You got a full OSHA inspection.
    Through our site-specific targeting now and our OSHA data 
initiative, we can identify those work sites in that particular 
metal fabricating industry and know that, before we go in 
there, they have the highest illness and injury rates.

                     OSHA AND CONSTRUCTION INDUSTRY

    Mr. Regula. I saw a construction site not long ago in my 
district, I think they had on their--the name of the company 
that says OSHA compliant.
    Mr. Layne. It could mean an OSHA partnership. We have a 
number of partnership initiatives with the construction 
industries as a whole. For instance, the one that is--the 
largest one across the United States is with Associated 
Builders and Contractors. So it could have been an employer 
that was in the Associated Builders and Contractors and 
participated in our partnership program.
    Mr. Regula. Now if you observe good practices either in a 
mining operation or in an industry that are constructive, do 
you write it up and share it with others in the same industry 
to be helpful?

                     VOLUNTARY PROTECTION PROGRAMS

    Mr. Layne. Yes, sir. We have a number of ways to do that. 
The one that is most effective is, of course, through our 
Voluntary Protection Programs, or VPP, programs; and the 
concept behind that is safety and health is everybody's 
business.
    Mr. Regula. That is true.
    Mr. Layne. This organization, these members of the OSHA's 
Voluntary Protection Programs, have set up on their own, 
outside of OSHA, a huge organization; and the concept there is 
sharing information across industry lines about workplace 
safety and health. It is very, very successful. Their annual 
conference traditionally--even though there are only 700 sites 
Nation-wide--their annual conference had over 3,000 people last 
year.
    Now they are beginning to have chapters of the Voluntary 
Protection Program. It is an initiative outside of OSHA.
    Mr. Regula. That is great. After all, the mission is to 
avoid accidents and be constructive.

                           PENSION PROTECTION

    PWBA--I have a steel mill that may or may not go down in 
our general area in Ohio--if there is a plant closing or a 
business failure or a Chapter 7, does PWBA have a role in 
providing information to workers about their benefit rights? 
Because you can understand that people are very nervous even at 
the thought of a plant going down.
    Ms. Combs. Yes, we do. In particular, we have a program 
that is targeted at companies facing bankruptcy. It is called 
the React Program, where we become aware of a bankruptcy 
filing----
    Mr. Regula. Is that a Chapter 11 filing?
    Ms. Combs. Yes, yes, I am sorry. I am getting my arms 
around these things. We go in and meet with the plan, meet with 
the participants and with the bankruptcy overseer to make sure 
that the benefit claims are considered in the filing, that they 
are given the appropriate priority, that the money is 
distributed to the extent the assets are there and the benefit 
claims are paid.
    We coordinate with the Pension Benefit Guarantee 
Corporation which is the Federal insurance system if there is a 
defined benefit plan, which typically in a steel situation 
there would be. So they are aware and they work on the ground 
as well. I think it has been a very successful program. It is 
relatively new, but it looks good.
    We are reviewing these things, and I think it is the type 
of thing where we are trying to target our resources to at-risk 
populations. People facing bankruptcy and plant closings are, 
as you said, rightfully concerned about their benefits; and we 
want to make sure that they are reassured and that they are 
aware of what their rights are and that their benefits are 
paid.

                   EFFECT OF ECONOMY ON PENSION PLANS

    Mr. Regula. How do you ensure that the PWBA benefit 
programs are adequately funded during an economic slowdown, for 
example, or in a particular industry? There would be a 
temptation, I would suspect, to withhold the cash that ought to 
be going to that operation.
    Ms. Combs. I think that is an at-risk situation. In an 
economic downturn, obviously people are scrambling; and what we 
have seen is people slowing down. In a 401(k) plan where people 
have their own contributions withheld or the premiums for their 
health insurance and kind of a lag in getting the money to the 
plan, we bring a lot of investigations. We have had--both 
401(k) plans and health benefit claims are two of the three 
identified areas in our strategic plan for enforcement. We have 
an active program of going in, and we have publicized these 
cases, particularly the 401(k), getting the employee 
contributions in----
    Mr. Regula. I assume they have to report as they make their 
deposits.
    Ms. Combs. It is on a schedule that is linked to kind of 
withholding. So, depending on the size of the company, they 
have a certain amount of time, I think it is 15 days after the 
month in which it is due, under our regulations, to get the 
money in. They don't report, to my knowledge, and I will ask my 
people here, every time that they remit they don't report. We 
have an annual report at the end of the year where they have to 
indicate the contributions in the plan.
    Excuse me. I am told they don't report to the Department of 
Labor, but they do report to their participants on a quarterly 
basis.
    Mr. Regula. So they would have some alerts as to the fact 
that there may not be money being put in that should be.
    Ms. Combs. Right. In fact, we have a participant assistance 
program, and it has been a very good source of leads for our 
investigators, where people will call in and say, I know they 
are withholding money, but I have gotten my statement, and it 
does not seem to be there. We have opened, I think, 1,200 
investigations based on those kinds of complaints in recent 
years.
    So we link our participant assistance function with our 
enforcement function. We view it very much as part of our 
enforcement function to try to be able to become aware of those 
situations.

                 MSHA/NATIONAL ACADEMY OF SCIENCE STUDY

    Mr. Regula. The MSHA/National Academy of Science study, 
there was $2 million, I believe, in the last budget for the 
Mine Safety and Health Administration for a National Academy of 
Science's study of coal waste impoundments. Is this study under 
way? What is the status of it?
    Mr. Lauriski. The study is under way, and my understanding 
is that it is due to be completed, hopefully, by October. There 
is an outside chance that it may not be completed, but the 
study is under way.
    Mr. Regula. Last question. What kind of things would you 
look for on employment standards? Give me the mechanics of how 
your agency affects corporation A.
    Mr. Joe N. Kennedy. The employment standards actually looks 
at equal opportunity laws. It looks at wage and hour laws, and 
certainly it provides outreach. We have a Web site where we 
provide technical assistance. Each of the programs provide that 
assistance through an 800 number.
    We have ombuds programs to interact with agencies. We have 
industry liaison groups where we actually encourage our staff 
to meet regularly in the regional offices with employer 
organizations and employers, and these groups actually develop 
together best practices so they are shared within the 
industries.

                      BEST PRACTICES IN COMPLIANCE

    Additionally, we have partnerships with some of the major 
groups that represent certain segments of the industry. For 
example, in the employment area we had the American Banking 
Association enter into the development of best practices 
handbooks for distribution to the banks on employment 
practices; and what we have found is, over a period of time, 
that this has helped us shape our program in a way that we are 
more responsive to the direct needs of the corporations and 
industries.
    One of the outgrowths of having partnered with those 
organizations has been the development of global agreements 
from a corporate perspective. For example, if we have gone in 
and found problems at several locations within a corporation, 
rather than continue down the path of identifying problems at a 
series of separate locations, what we have done is actually 
work with the corporate structure to develop a program that 
they would self-monitor themselves throughout the corporation 
so it would facilitate their coming into compliance in a 
voluntary fashion without the need for direct oversight.
    Mr. Regula. Do you enforce wage and hour laws?
    Mr. Joe N. Kennedy. Yes, we do.
    Mr. Regula. So you would get complaints that would trigger 
investigations, I assume, from employees?
    Mr. Joe N. Kennedy. Yes, there are complaints as well. We 
have self-generated programs, and we do have complaint programs 
where we respond directly to the allegations that are made by 
complainants.
    Mr. Regula. But your employment standards would be more of 
a--not a safety issue but rather in the way in which the 
individual's employment activities are handled, am I correct?
    Mr. Joe N. Kennedy. Yes, that is correct.
    Mr. Regula. Well, I thank all of you for coming. It has 
been an interesting discussion and useful information. You must 
be doing a pretty good job because I, at least in my district, 
haven't had any major amount of complaints.
    I used to get a lot more on OSHA than I have recently, and 
I think the attitude in OSHA has shifted somewhat over the 
years from being punitive to being constructive. And that has 
been reflected in your testimony, that people depend on you to 
protect them, their safety as well as their rights. Thank you 
for being here.
    Ms. Combs. Thank you, Mr. Chairman.
    Mr. Regula. We will recess until 2 o'clock.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Wednesday, May 2, 2001.

              EMPLOYMENT AND TRAINING; VETERANS EMPLOYMENT

                               WITNESSES

RAYMOND J. UHALDE, DEPUTY ASSISTANT SECRETARY, EMPLOYMENT AND TRAINING 
    ADMINISTRATION
STANLEY A. SEIDEL, FIRST ASSISTANT FOR VETERANS EMPLOYMENT AND TRAINING 
    SERVICES

                       Introduction of Witnesses

    Mr. Regula. We will get the hearing started. Let's see. We 
are dealing with the veterans employment and Training Service 
and the Employment and Training Administration. Right?
    Mr. Uhalde. Yes, sir.
    Mr. Regula. Now, are you both going to testify?
    Mr. Uhalde. We are, sir. I will do an opening statement and 
we will both be available for questions.
    Mr. Regula. Okay. Your statement will be made a part of the 
record, and you can summarize for us, as you see fit.

                           Opening Statement

    Mr. Uhalde. Thank you, Mr. Chairman. We appreciate the 
opportunity to appear before you today to present the 
Department of Labor's fiscal year 2002 budget for the 
Employment and Training Administration and the Veterans 
Employment Training Service. Secretary Chao has expressed her 
hope that every worker have the opportunity for a fulfilling 
and financially rewarding career. The employment training 
activities funded by this request will help ensure that workers 
receive the training and support they need to choose and 
progress in their occupations.
    The administration's fiscal year 2002 budget request for 
workforce preparation, employment services and unemployment 
insurance totals $10 billion under current authority, a 
decrease of $503 million from the comparable amount in 2001; 
includes 9.1 billion for discretionary programs and about 880 
million for mandatory programs.

                        Workforce Investment Act

    This request allows us to build upon the framework of the 
bipartisan Workforce Investment Act to develop a revitalized, 
customer-focused system that provides workers with the 
information, advice, job search assistance, education and 
training to get and keep good jobs and to provide employers 
with skilled workers.
    Mr. Regula. Now as I understand it, you do the training 
assistance where you have an impact from imports?
    Mr. Uhalde. Yes, sir.
    Mr. Regula. That would be part of your----
    Mr. Uhalde. That is part of the trade adjustment assistance 
and NAFTA trade assistance.
    Mr. Regula. Okay.
    Mr. Uhalde. Before I discuss the details of the budget 
request, I would like to just give you an update of the 
implementation of the Workforce Investment Act, since this 
committee is a principal investor in that system. There has 
been much innovation and tremendous change at the State and 
local level since the enactment of that act. Forty-four percent 
of the States changed the boundaries of their service delivery 
areas at the local level, and 55 percent established new State 
workforce investment boards. Sixty-two percent established new 
local workforce boards.

                        One Stop Career Centers

    Additionally, many one-stop career centers have been 
established, and my written testimony provides examples of a 
lot of this----
    Mr. Regula. And you support those? That is through your 
agency, the one-stop career centers?
    Mr. Uhalde. Yes, sir. Those were actually started through 
investments by this committee as demonstrations, and we have 
built those up over the years through the States.
    Mr. Regula. I know in Ohio, it seems to me the State also 
does some career programs. Is this in cooperation with the 
Federal program, or would that be a separate program?
    Mr. Uhalde. More than likely, it is in cooperation with us. 
We provide our money to the States, and States use those funds. 
They could use additional funds. And I know in Ohio, they have 
built some one-stop centers in Dayton, Ohio and around the 
State that are operating.
    Mr. Regula. Would this include rehabilitation services, 
injured workers?
    Mr. Uhalde. Well, those are resources that are funded 
through the Department of Education.
    Mr. Regula. Okay.
    Mr. Uhalde. But they do participate in these one-stop 
centers jointly with us. The whole idea of the one-stop is make 
it easy for the citizens to find all the array of programs that 
are funded, come to one place.
    We continue to increase knowledge and recognition of this 
by the public and business of the quality of services in 
building the system. We call it America's Workforce Network, 
because it offers a network of services and because it is 
created and maintained by a network of partners. Federal, State 
and local governments, businesses, organized labor, education 
organizations, faith-based groups, and others participate in 
this system. This cobranding lets our customers know how and 
where to access the information services for which you are 
providing the funding, while allowing States and them to 
maintain their own identity and ownership.
    Based on actual and projected expenditures, though, we have 
had some problems in the implementation over the past year. It 
appears that States and local communities will carry over about 
$1.7 billion into program year 2001. That will start July 1 for 
us. The decrease in our budget request for fiscal 2002 is 
related to this carry-over. Our reduced request still enables 
the system to serve at least the same number of participants 
next year as in fiscal year 2001.

                           Carryover Funding

    Mr. Regula. That is because of the carry-over?
    Mr. Uhalde. That is correct.
    Mr. Regula. Now, theoretically then at the end of next 
year, you would not have any carry-over?
    Mr. Uhalde. Our projection is by the end of 2002 we would 
have a normal carry-over.
    Mr. Regula. You need some----
    Mr. Uhalde. About 20 percent.
    Mr. Regula. Working capital?
    Mr. Uhalde. That is correct.
    Mr. Regula. Okay.
    Mr. Uhalde. There is a variety of reasons for this: 
Underspending based on our review of all 50 States. You know, 
some local areas have yet to fully establish the youth councils 
and have to make decisions for awarding contracts and grants 
for youth funding.
    Mr. Regula. So carry-overs would vary from State to State?
    Mr. Uhalde. It varies from State to State, yes, sir.
    Mr. Regula. And you would then----
    Mr. Uhalde. And within States from local area to local 
area. Within Ohio, Cleveland may have spent much more money 
than, say, Dayton.
    Mr. Regula. You will accommodate for that in budgeting your 
October 1 appropriation?
    Mr. Uhalde. Well, our request doesn't anticipate making 
adjustments based on the funding. Virtually all States have 
accumulated substantial balances.
    There is a variety of reasons for this. As I mentioned, 
this act is really a great transformation of the act. We are 
instituting individual training accounts for adults, vouchers 
to get the training, but it has taken time for localities to do 
that. In your own State of Ohio, they have had major changes in 
the workforce areas in the State, and it has taken more time 
than expected to do this.

                           TRAINING VOUCHERS

    Mr. Regula. could they take the vouchers to a private 
sector program?
    Mr. Uhalde. Yes. They can take it to community colleges, to 
private for-profit training institutions.
    Mr. Regula. That makes a lot of sense, I think.
    Mr. Uhalde. It allows the adults to be able to pick the 
occupations they want to train in and the institutions.
    Mr. Regula. Like, in my district, we have a superb 
technical institute.
    Mr. Uhalde. Sure.
    Mr. Regula. And this would really fit in with that.
    Mr. Uhalde. Absolutely.

                          VETERANS EMPLOYMENT

    Mr. Regula. And you are nodding. I assume the veterans have 
a somewhat similar program?
    Mr. Seidel. Absolutely.
    Mr. Regula. Okay.
    Mr. Uhalde. But it has taken time to get that up to speed. 
And so the program is not expending as much money on training 
as would otherwise be expected.

                        EMPLOYMENT AND TRAINING

    We have worked with the States now and local governments to 
try and address these underexpenditures. We have work groups 
together with them, and we will address each of these areas in 
concert with States and localities, and we are very confident 
that we will see very shortly a rapid increase in the 
expenditures so that this time next year we will be in good 
shape and we will have served people well.

                    EMPLOYMENT AND TRAINING FUNDING

    Let me just summarize a couple of the request items because 
I know there are some changes that have taken interest by this 
committee. An investment of $2.65 billion is requested for 
employment training programs for young people to help them 
transition into the world of work and to assume family 
responsibilities.
    Mr. Regula. Would these be individuals who have no work 
experience?

                          DISADVANTAGED YOUTH

    Mr. Uhalde. Most of the time young people--they have very 
sporadic work experience, and for young people, those are 
economically disadvantaged youngsters.
    Students oftentimes moving from school and into the 
workforce need assistance in that first transition in these 
programs, help in that regard, particularly out of school kids 
that have dropped out oftentimes.
    We are asking for support for responsible reintegration of 
young offenders, which is a $55 million appropriation in 2001. 
We are requesting a reprogramming for an additional $20 million 
in that. This would be grants that we anticipate to help young 
offenders find employment coming out of incarceration.

                            YOUTH OFFENDERS

    Mr. Regula. Okay. You would deal with those coming out of--
having been incarcerated?
    Mr. Uhalde. That is correct. And we would do this with the 
Justice Department and with Health and Human Services, who want 
to provide resources for mental health and particularly 
substance abuse, which is a big issue for ex-offenders.

                         UNEMPLOYMENT BENEFITS

    We are asking for a $50 million increase in the State 
unemployment insurance and employment service programs to 
reflect the expected increase in the number of claims for 
unemployment benefits given the softening of the economy, as 
the Secretary talked about yesterday.

                           PERFORMANCE GOALS

    I am pleased to report that Employment Training 
Administration has achieved all its GPRA performance goals 
during the course of the year. Performance on employment 
insurance, as well as our job training programs continued to 
have strong outcomes.

                               JOB CORPS

    One last point on employment training programs is one way 
we measure our performance is through rigorous evaluations and, 
with this subcommittee's encouragement and your funding, we 
have conducted a long-term national evaluation of the Job Corps 
Program, very rigorous evaluation. We have a draft final report 
we have just received, and it shows that the average Job Corps 
student receives the equivalent of a year of additional 
education and vocational training as a result of this beyond 
what they would have had with the absence of the program. The 
program increases the average earnings of these youngsters, 
about 12 percent more than it would have been, and it reduces 
crime and welfare receipts.
    The bottom line is that the benefits the Job Corps has 
shown in this study have been shown to exceed the costs.

                VETERANS EMPLOYMENT AND TRAINING SERVICE

    For Veterans Employment and Training Service, the request 
would allow them to continue to develop new initiatives that 
will enable veterans, especially recently separating service 
members to qualify for and get and keep good jobs, career 
building jobs that our technology-driven economy is demanding.

                              VETS WEBSITE

    We are looking to build on the success of UMET, using your 
military experience and training, which is our certification 
and licensing Web site. Vets have taken a lead in identifying 
military occupations that need licenses, certificates and other 
credentials to ensure that there are no barriers to transition 
from military to the civilian work.

                             HOMELESS VETS

    Secretary Chao has said she is committed to leaving no 
worker behind, and VETS is going to do its part to see the 
veterans get their rightful place in this economy. 
Unfortunately, every year about 250,000 veterans are left 
behind because they are homeless. That is why the VETS is 
committed to using the $17.5 million appropriated for its 
Homeless Veterans Reintegration Project to help more than 
10,000 homeless vets.

                 VETERANS WORKFORCE INVESTMENT PROGRAM

    In addition, 7.3 million allocated for Veterans Workforce 
Investment Program enable 2,200 eligible vets get jobs, 
training and supportive services.
    VETS will also be able to continue working with the 
Congress and our State partners to develop performance measures 
that are derived from accurate, quantifiable data, linked to 
the strategic plans and annual performance plans. These 
measures, along with more effective use of technology, will 
ensure that we have the systems in place to properly administer 
the DVOP and LVL grants to States, which are by far the largest 
proportion of their overall budget.

                       VETERANS PREFERENCE RIGHTS

    And finally, there are 250 million will support--excuse me, 
$26 million will support 250 VETS staff to perform a myriad of 
tasks, including oversight of the grants, investigating 
complaints under the Uniform Services Reemployment Rights Act, 
or veterans preference rights, administering the reporting 
component Federal contractor program, giving technical 
assistance and improving working relationships with Federal, 
State and local partners.
    Mr. Chairman, this concludes the oral testimony, and we 
would be available for questions.
    [The opening statement follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. You were just going to respond to questions, 
Mr. Seidel?
    Mr. Seidel. That is correct, sir.
    Mr. Regula. Do you work together, because you are both in--
you are giving them training assistance. Am I correct?

                           DISABLED VETERANS

    Mr. Seidel. Absolutely correct, Mr. Chairman. We are 
fortunate enough to be working in an environment where the 
Employment Training Administration and our State partners house 
our disabled veterans outreach program specialists and local 
veterans employment representatives to ensure that when 
veterans get out of the military or when they are employed will 
be able to find secure employment.
    Mr. Regula. So with the vouchers, you could have people 
from your shop going to the same place as people from programs?
    Mr. Seidel. Yes.
    Mr. Uhalde. Absolutely. And they work together in the one-
stop system; the disabled veterans outreach people will work in 
the same one-stops with Employment Service and other people.

                               JOB CORPS

    Mr. Regula. Someone the other day was telling me--I used to 
chair the committee with the parks and forests and so on, and 
this individual had been with the National Forests and observed 
the Job Corps efforts there. Would that be part of your 
program?
    Mr. Uhalde. Yes, sir. But 20-something Job Corps centers 
are operated by both the Forest Service or the Park Service, 
and these Job Corps centers are residential. They are in the 
parks. And a lot of the work is----
    Mr. Regula. Are you involved in financing any part of that?
    Mr. Uhalde. Yes. We finance all of those Job Corps centers.
    Mr. Regula. So they administer them, locate them, but 
nevertheless, the expense of operating would be part of your--
--
    Mr. Uhalde. That is correct, part of our budget request, 
and we have agreements with them to operate those specific 
centers against performance standards.
    Mr. Regula. Would you offer GEDs in your programs for these 
kids that drop out of high school and need to get some new 
skills?
    Mr. Uhalde. Yes, absolutely. GEDs is one of the outcomes 
for Job Corps, but also some of the centers are able to offer 
high school diplomas, and we are moving to try and make that 
more rigorous.

                      TRADE ADJUSTMENT ASSISTANCE

    Mr. Regula. Have you noticed any rise in the last 6 months 
in the number of people requesting assistance from trade 
adjustment to programs?
    Mr. Uhalde. Yes, sir. Applications for trade adjustment 
assistance and both NAFTA have increased and the certification 
workload has increased significantly.

                            YOUTH OFFENDERS

    Mr. Regula. The Secretary requested authority to reprogram 
funds. This included $20 million for the Incumbent Worker 
Initiative to the Young Offenders Initiative, which would bring 
your level up to $75 million. It is my understanding that this 
reprogramming will enable this partnership, which is Justice 
and HHS, to operate for 2 additional years, or through 2002.
    Mr. Uhalde. Yes, sir. That is correct. And we think it is--
since this is a new initiative, relatively new initiative with 
these agencies, we would like to be able to invest for a longer 
period, 2 years to get them started and get this to take off 
and take root.
    Mr. Regula. Is this an outgrowth of CETA? Is this in any 
way connected with the CETA program?
    Mr. Uhalde. I guess there is a lineage, Mr. Chairman, but 
CETA ended in the--in 1979, 1980. Then the Job Training 
Partnership Act was in operation.
    Mr. Regula. JTPA.

                        WORKFORCE INVESTMENT ACT

    Mr. Uhalde. JTPA. And then the Workforce Investment Act was 
passed on a bipartisan basis in 1998.
    Mr. Regula. Your budget redirects $45 million from 
employment and training national activities to youth training 
services under the WIA formula grants program in fiscal year 
2001, but your fiscal year 2000 request for this program is a 
reduction of $102 million from what was appropriated in 2001. I 
don't quite follow why you would increase resources for 2001, 
then decrease resources for the same programs for 2002. Is this 
a demographic situation?
    Mr. Uhalde. Well, the interest of communities has been in 
this transition from the elimination of a set-aside of funding 
for summer jobs under JTPA to the Workforce Investment Act. 
They have been having difficulty trying to maintain summer jobs 
program--and do all the things under WIA to provide longer term 
training to kids. So we thought in 2001 we would move an extra 
$45 million into the youth formula so they could ease their 
transition for summer jobs, and then in 2002 we make a 
reduction because of the carry-over funds that are going to be 
available.
    Mr. Regula. I like the idea of the one-stop centers. Are 
you getting cooperation from the States and other local 
communities, and even other agencies within the government, 
because I am sure you are not the only one that has some piece 
of retraining.

                        One-Stop Career Centers

    Mr. Uhalde. No. That is absolutely true. The concept of 
one-stop, States and local communities are our strongest 
partners and advocates for this. This is the way to coordinate 
access for people. We have 19 programs that are mandated to 
participate in this law. I would say the cooperation at the 
local level is mixed around the country, and we are working 
very hard at the Federal level with the Department of 
Education, Health and Human Services to improve that. But it is 
something that is negotiated community by community and State 
by State, and it is not easy, and the States will----
    Mr. Regula. Whenever you get into turf, it never is easy.
    Mr. Uhalde. That is absolutely right.
    Mr. Regula. I am sure you experienced that.
    Mr. Uhalde. Especially when you want to ask different 
programs to pony up money together to jointly fund, like, the 
intake or job development, things that are common activities. 
Everybody waits to put their poker chip on the table last.
    Mr. Regula. I understand what you are saying, and I noticed 
that that happens even with mergers of companies in the 
corporate world.
    Mr. Uhalde. Yes, sir.
    Mr. Regula. Ask John Reed.
    Mr. Uhalde. But it is the right thing to do. It is----
    Mr. Regula. I understand that.
    Mr. Uhalde. We just need to keep working at it.
    Mr. Regula. When we have problems here, we historically 
have tried to merge programs.
    I don't fully understand that, but I guess it is what we 
call turf.

                           Veterans' Funding

    Veterans, are you getting an increase or decrease in your 
request?
    Mr. Seidel. We are staying about the same.
    Mr. Regula. About the same?
    Mr. Seidel. Absolutely.
    Mr. Regula. Say a veteran has been out 20 years in the 
private sector and gets laid off. Can they come back to your 
agency?
    Mr. Seidel. Absolutely.
    Mr. Regula. They have a choice, I assume?

                           Disabled Veterans

    Mr. Uhalde. Yes, sir. They are certainly eligible for all 
of our services. They can get special services through 
veterans----
    Mr. Regula. Do you provide something in the way of services 
that is different than what they would in the normal----
    Mr. Seidel. I wouldn't say it is different. I would say 
that we have our disabled veterans outreach programs specialist 
and local veterans who have been through the military and 
therefore they have an idea of what an individual did while 
they are in the military and therefore can help them translate 
that military to civilian sector.
    Mr. Regula. So you could get those who retire or leave the 
military for whatever reason?
    Mr. Seidel. Correct.
    Mr. Regula. And are looking for a new skill?
    Mr. Seidel. Absolutely. And----
    Mr. Regula. You assess the marketplace--I guess what I am 
leading to is this--in your programs, both of them, what might 
be useful would be different in Canton, Ohio than would be the 
case in Chicago because of the employment opportunities. And my 
question is, do you gear your programs based on some assessment 
of what kind of opportunities might exist in the outside world 
for people to gain employment?

                    Transition Program For Veterans

    Mr. Seidel. Well, our staff that are assigned to the States 
and therefore have a good idea of what the local labor market 
is, as well as working with the tools that our Employment 
Training Administration has developed, and ourselves in 
providing information on what is available at the local labor 
market. So if a person is getting out of the military, we run a 
3-day workshop we call TAP, transition program, and we also 
inform them of tools they can look at on the Internet that will 
tell them exactly what the employment situation is in an area 
where they want to reside.
    Mr. Regula. Is that on your Internet?
    Mr. Seidel. That is on both of ours.
    Mr. Regula. I mean, it is on yours, not on a private sector 
Internet?
    Mr. Seidel. That is correct.
    Mr. Regula. So here, I am a veteran, come back home, and I 
am looking to get a skill. You would be able to provide 
assistance, both in saying, well, this is the kind of people 
that are needed in Canton, Ohio, and here is how we can help 
you gain the skill you need for those opportunities?
    Mr. Seidel. We can do that, as well as if they want to 
transfer their military skills, our using military experience 
in training will tell them what the skills gap is, what 
training do they really need in order to practice that 
occupation they learned in the military in the civilian sector.
    Mr. Regula. Because the military makes quite a point of you 
getting the skill and that is part of the inducement for 
recruitment and you enhance that skill for that individual?
    Mr. Seidel. Correct. And we have also talked to the 
military about using the employment service to recruit 
individuals to get training. So it is sort of like we are 
symbiotic. We are working together with our partners----
    Mr. Regula. Are you involved in Troops for Teachers?
    Mr. Seidel. No. We are not specifically involved in Troops 
to Teachers, but we are working with them.
    Mr. Uhalde. Mr. Chairman, I might just add one other thing. 
To make training relevant in local communities, one of the 
basics of the Workforce Investment Act is that it is governed 
at the local level by workforce boards that are business-led.
    Mr. Regula. Yeah. I am familiar with them.
    Mr. Uhalde. And the reasons for that is to make sure it is 
relevant to the local labor market.

                        ONE STOP CAREER CENTERS

    Mr. Regula. Do you do counseling? In other words, the 
veteran or the nonveteran walks in and says, I am not sure what 
I am good at and I am not sure what I ought to pursue. Do you 
give them a battery of tests and have counselors that advise 
them that you would make a good auto mechanic, or you might be 
good at something else?
    Mr. Uhalde. Absolutely. These one-stop centers and TAP 
programs. They all provide the counseling assistance, labor 
market information from some of the best. Also they can access 
it through computers in these workshops in the one-stops self-
assessment, and we can provide testing services there, both, 
for them. We can bring employers in and help them with 
recruitment efforts in the one-stops. Workers that are laid 
off, we can actually go on-site before workers are ever laid 
off and in fact oftentimes we can go on a base before people 
are discharged to help them prepare and hook up for jobs.
    Mr. Regula. Okay. Well, we have votes on, but I think we 
have covered this. It is obvious from the absence of my 
colleagues that you must be doing something right, or they 
would be here to challenge you on this. That is a good sign. 
And thank you for coming. We appreciate very much the 
information you shared with us, and I think these programs can 
provide a very useful assistance to those who are seeking 
career changes or just employment.
    Mr. Uhalde. Thank you very much, Mr. Chairman.
    Mr. Seidel. Appreciate it.
    Mr. Regula. The committee is adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Chao, Hon. E.L...................................................     1
Combs, A.L.......................................................    81
Kennedy, J.N.....................................................    81
Lauriski, David..................................................    81
Layne, R.D.......................................................    81
Seidel, S.A......................................................   163
Uhalde, R.J......................................................   163


                               I N D E X

                              ----------                              

                         DOL Secretary of Labor

                                                                   Page
Advance Appropriation............................................     9
Apprenticeship Approval Process..................................    16
Biography........................................................    12
Bureau of International Labor Affairs (ILAB):
    Budget Cuts..................................................    55
    Funding...................................................8, 14, 19
Bureau of Labor Statistics (BLS):
    Consumer Price Index.........................................    46
    Funding......................................................     8
Closing the Skills Gap...........................................    38
Companionship Services...........................................    68
Concluding Remarks...............................................     4
Congressional Review Act.........................................    22
Coordination of Government Efforts...............................    43
Coordination Among Federal Grant Programs........................    59
Davis-Bacon:
    Regulations..................................................    34
    Wage Determinations..........................................    58
Department of Justice Review of Guidelines.......................    34
Disability Employment Policy.....................................     7
Disparate Spending Patterns......................................    49
Employment Standards Administration (ESA):
    Office of Federal Contract Compliance Programs...............60, 62
    Office of Labor-Management Standards.........................    62
        Labor-Management Reports Online Database.................    45
    Wage and Hour Division.......................................    61
    Wage and Hour Enforcement....................................    52
Employment and Training Programs.................................     6
Energy Employees' Occupational Illness Compensation Program Act..     9
Ergonomics:
    Administration's Objections..................................    76
    Comprehensive Approach.......................................52, 78
    Regulations..................................................    24
    Standards....................................................    20
Fair Labor Standards.............................................    73
Family and Medical Leave.........................................    39
Federal Employees' Compensation Act Surcharge....................    11
FTE Usage v Ceiling..............................................    47
Full Restoration of FY 2002 Cuts.................................    50
Gender Pay Gap...................................................    36
Government Performance and Results Act (GPRA)....................    10
Grant Accountability.............................................    10
H-1B Visas.......................................................    31
Information Technology...........................................10, 44
International Child Labor........................................    41
International Labor Practices....................................    26
Introduction of Witness..........................................     1
Job Corps:
    Centers......................................................25, 26
    Expansion....................................................    60
Limited English Proficiency:
    Basis and Applicability......................................    71
    Costs........................................................    74
    Guidelines...................................................32, 57
    Issues.......................................................    71
LM-2 Forms.......................................................    30
Mine Safety and Health Administration (MSHA).....................    64
New Freedom Initiative...........................................     2
Nurses Shortage..................................................    30
Occupational Safety and Health Administration (OSHA):
    Compliance Assistance Activities.............................    64
    Proposed Rule on Tuberculosis................................    14
    Reorganization...............................................58, 77
Office of Small Business Programs................................    66
Office of the 21st Century Workforce.........................13, 26, 41
Office of Disability Employment Policy...........................    42
One-Time Reductions..............................................    50
Pay Equity.......................................................    23
Pension and Welfare Benefits Administration (PWBA):
    Agency Role..................................................    55
    Agency Goals.................................................    65
    Pension Protection........................................... 4, 14
Possible Unit Cost Increases.....................................    49
Presidential Appointments........................................    35
Proposed Funding Cuts............................................    51
Readjustment Assistance..........................................    24
Six Goals for the Department:
    Training and Development.....................................     2
    Safe and Healthy Work Places.................................     3
    Honest Day's Pay for an Honest Day's Work....................     3
    Reducing Barriers to Employment..............................     3
    Worker Protection............................................     3
    Pension Protection...........................................     4
State Response to Policy Guidelines..............................    33
Susan Harwood Training Grants Program............................54, 75
Trade Adjustment Assistance/NAFTA-TAA............................    11
Training:
    America's 21st Century Workforce.............................     2
    Job Training Funding.........................................    17
    Universal Job Training Needs.................................    51
    Vocational...................................................    29
    Workers for a Technology Economy.............................    67
Unemployment Insurance...........................................     9
Veterans' Employment and Training Service (VETS)................. 9, 66
WIA Unexpended Balances Trends...................................    48
Worker Protection/Compliance Assistance..........................  3, 7
Worker Protection Programs.......................................    26
Workers Skills Gap...............................................    28
Workforce Injuries...............................................    78
Workforce Investment Act (WIA)...................................    13
Written Statement................................................     5
Youth Opportunity Grants.........................................18, 23
Youth Opportunity Grants Site Visits.............................    51

                        Worker Protection Panel

Employment Standards Administration:
    Biographical Sketch..........................................    97
    Child Labor..................................................   133
    Compliance Assistance.................................120, 125, 129
    Energy Employees Occupational Illness Compensation Program...   122
    Enforcement..................................................    90
    Federal Employees Compensation Act...........................   131
    H-1B Visa Applications.......................................   133
    Information Technology Initiatives...........................   135
    Opening Statement............................................82, 88
    Poultry Industry Survey......................................   101
Mine Safety and Health Administration (MSHA):
    Advisory Committees..........................................   147
    Bluestone Industry...........................................   102
    Compliance Assistance..................................116, 127, 148
    Information Technology Initiatives...........................   135
    Inspections..................................................   130
    MSHA Web Site................................................   115
    National Academy of Science Study............................   120
    Opening Statement............................................83, 93
    Staff and Staff Reduction..................................145, 151
    Voluntary Protection Program (VPP)...........................   113
    Worker Protection and Safety.................99, 100, 115, 146, 148
Occupational Safety and Health Administration:
    Budget Reduction and Funding..........................106, 108, 149
    Compliance Assistance.......................100, 106, 115, 117, 128
    Enforcement................................................117, 139
    Ergonomics.......................................110, 140, 151, 154
    Information Technology Initiatives...........................   135
    Inspections..................................................   131
    Opening Statement............................................83, 91
    Safety Inspections, Small Firms............................138, 150
    Standards and Rules....................138, 149, 150, 153, 158, 159
    Susan Harwood Grants..................................109, 122, 141
    Voluntary Protection Program (VPP).........................115, 118
    Worker Protection, Safety and Injury...................99, 109, 111
Pension and Welfare Benefits Administration:
    Biographical Sketch..........................................    95
    Compliance Assistance.................................114, 124, 129
    Effect of Economy on Pension Plans...........................   119
    Inspection and Enforcement...................................   123
    Information Technology Initiatives...........................   135
    Opening Statement............................................82, 86
    Pension Benefits.............................................   107
    Pension Protection...........................................   118
Employment and Training Administration:
    Adult Programs...............................................   174
    America's Labor Market Information System...................198-201
    Carryover Funding.......................165, 189, 205-216, 222, 223
    Disabled Workers............................................262-264
    Foreign Labor Certification.................................203-205
    Funding Reductions.........................................264, 265
    Incentive Grants...........................................196, 197
    Incumbent Workers............................................   192
    Job Corps...............................167, 184, 257-262, 265, 266
    National Programs............................................   174
    One Stop Career Centers...164, 185, 186, 187, 188, 193-196, 223-225
    Opening Statement............................................   169
    Participants...............................................216, 217
    Performance Goals............................................   167
    Program Administration.....................................176, 177
    Trade Adjustment Assistance...........................184, 201, 202
    Training Vouchers............................................   165
    Unemployment Benefits........................................   166
    Workforce Investment Act Formulae...........................217-222
    Workforce Investment Act Implementation......................   170
    Workforce Security Programs................................175, 176
    Youth Offenders.............................166, 185, 189, 190, 256
    Youth Opportunity Grants...........................190-192, 225-255
    Youth Programs....................................172-174, 185, 189
Veterans Employment and Training Service:
    Disabled Veterans..........................................184, 186
    Homeless Veterans..........................................167, 181
    National Veterans Training Institute.........................   181
    Opening Statement............................................   178
    State Grants.................................................   180
    Transition Program...........................................   187
    Veterans Administration......................................   180
    Veterans Funding......................................186, 202, 203
    Veterans Preference Rights...................................   168
    Veterans Website.............................................   167
    Veterans Workforce Investment Program......................167, 181

                                <greek-d>


</pre></body></html>
